<html>
<title> - NHTSA OVERSIGHT: THE ROAD AHEAD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    NHTSA OVERSIGHT: THE ROAD AHEAD

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2010

                               __________

                           Serial No. 111-104


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-016                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     4
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     7
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................     8
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     9
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    81
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, prepared statement....................................    85
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    88

                               Witnesses

David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    91
Joan Claybrook, Former Administrator, National Highway Traffic 
  Safety Administration..........................................    33
    Prepared statement...........................................    37
Ami V. Gadhia, Safety Policy Counsel, Consumers Union............    46
    Prepared statement...........................................    48
    Answers to submitted questions...............................   119
Dave McCurdy, President and CEO, the Alliance of Automobile 
  Manufacturers..................................................    59
    Prepared statement...........................................    62
    Answers to submitted questions...............................   127


                    NHTSA OVERSIGHT: THE ROAD AHEAD

                              ----------                              


                        THURSDAY, MARCH 11, 2010

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:48 p.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bobby L. 
Rush (Chairman of the Subcommittee) presiding.
    Members present: Representatives Rush, Schakowsky, Sutton, 
Barrow, Braley, Dingell, Markey, Stearns and Whitfield.
    Staff present: Michelle Ash, Chief Counsel; Anna Laitin, 
Professional Staff; Will Cusey, Special Assistant; Bruce Wolpe, 
Senior Advisor; Danny Hekier, Intern; Jeff Wease, Deputy 
Information Officer; Elizabeth Letter, Special Assistant; 
Lindsay Vidal, Deputy Press Secretary; Shannon Weinberg, 
Minority Counsel; Brian McCullough, Minority Senior 
Professional Staff; Sam Costello, Minority Legislative Analyst; 
Robert Frisby, Minority FTC Detailee; Sarah Kelly, Press 
Intern; and Kevin Kohl, Minority Professional Staff.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will now come to order.
    Let me just say something in regards to those people who 
have been waiting since 10 a.m. this morning. I sincerely 
apologize, but as you know, the duties of the House are varied 
and we did have to postpone this meeting for a series of votes 
and other matters, so again, please accept my sincere apologies 
for the delay. We are very cognizant of your time and we value 
your time, so please accept our humble apology. We will now 
proceed with this hearing.
    This hearing today is a hearing of the Subcommittee on 
Commerce, Trade, and Consumer Protection, and the subject 
matter is NHTSA: The Road Ahead. The Chair recognizes himself 
for 5 minutes for the purposes of an opening statement.
    The Subcommittee on Commerce, Trade, and Consumer 
Protection again welcomes our participants here at this 
meeting. Our main purpose for coming together today is to 
assess NHTSA's functionality and its effectiveness. Last month, 
I promised America's motorists, passengers, and pedestrians 
that as this subcommittee takes up its jurisdictional 
responsibility to reauthorize NHTSA, we would help NHTSA regain 
the public's confidence.
    This is our first occasion to welcome NHTSA's newest 
administrator, Mr. David Strickland, to this hearing and to 
this subcommittee and to this committee. Although Administrator 
Strickland's first several months at NHTSA's helm have been 
rocky and filled with difficult challenges, I know him to be a 
highly intelligent, thoughtful and capable professional. I 
expect that he will ``shoot straight'' with us as we begin 
crafting reauthorization legislation that the members of this 
subcommittee can quickly support and move through this 
subcommittee and through the full committee and take it to the 
floor of the House.
    I look forward to listening to both witness panels and 
hearing their views on what NHTSA is currently doing through 
its crash data analysis, its research and its rulemakings to 
promote vehicular safety.
    Although I am typically not very stringent about enforcing 
time restrictions on member statements and questioning, this is 
a different day. We are starting late, and because of the 
timeliness, I will not hesitate to drop the gavel today to keep 
us on point, and I might say, on the right path, as much as 
possible. The right road may be more appropriate. We have a lot 
of ground to cover and we expect a number of members to 
participate. I would ask my colleagues for their understanding 
and to be as cooperative as possible as it relates to the time 
considerations.
    Before I yield my time, I would like to say a few words 
about the scope of today's hearing. Let me be clear, this is 
not a hearing about Toyota's recalls or its practices. Please 
try to restrain yourselves from veering too far away from our 
purpose of examining NHTSA and NHTSA's configuration, NHTSA's 
organization, and NHTSA's performance in the areas of defects 
investigation, safety standards and enforcement.
    Again, I want to thank all of our witnesses for taking the 
time out of your very important schedules in order to advise 
this subcommittee. Again, I want to say we are more than 
thankful to you for your patience. Let us work collaboratively 
and constructively to ensure that NHTSA has on hand the 
necessary resources and capacity to fulfill its stated mission 
of saving lives, preventing injuries and reducing economic 
costs due to road traffic crashes through education, research, 
safety standards and enforcement activity. You are all great 
Americans and you are becoming greater Americans if you help us 
improve NHTSA. Thanking you again. I yield back the balance of 
my time.
    And now I recognize the ranking member for 5 minutes, my 
friend from Kentucky, Mr. Whitfield.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Well, thank you, Mr. Chairman. I also want 
to thank you all for your patience, and we welcome the 
witnesses on both panels.
    I would like to start out first of all this afternoon by 
simply congratulating the National Highway Traffic Safety 
Administration. I notice that today's vehicles are safer than 
ever. In 2009, there were 33,963 highway fatalities, which is 
too many, but the fewest since 1954. The rate of fatalities in 
2009 was 1.6 deaths per 100 million vehicle miles, and when 
this record was first recorded back in 1979, there were 3.34 
fatalities per 100 million vehicle miles. I think that should 
make the public feel more comfortable, even though one death is 
one death too many.
    As a result of all the focus on Toyota, some commentators 
have opined that the system is broken and needs to be fixed. 
Those opinions are wide ranging and point to many different 
issues ranging from NHTSA's authority to the way in which it 
has utilized its authority. Mr. Sean Kane, who is president of 
the Safety Research and Strategies Company, which does a lot of 
consulting work for plaintiff trial lawyers, testified during 
the Oversight and Investigation Subcommittee hearing last month 
when he was asked the question, does NHTSA need more tools, 
more authority. He simply said that ``I think the number of 
errors were made in the process of these investigations, not so 
much that the tools were not available as much as the tools 
were not employed.'' So I think it is important that we 
consider all of those things as we move forward.
    As far as unintended acceleration, this is a problem that 
has cut across 3 decades and multiple Administrations without 
successful resolution. Similar to NHTSA's finding in the late 
1980s and early 1990s when it commissioned an independent 
examination of unintended acceleration or the more recent 
review conducted between 1999 and 2000, the current 
investigation has not answered all questions and may never do 
so to everyone's satisfaction.
    Regarding NHTSA's action, it is also not clear what more 
they could have done than what they have already done and 
whether the outcome would be any different. Administrator 
Strickland testified last week that there simply wasn't a 
strong enough case to force the issue of a mandatory recall, 
even if that had been decision NHTSA's decision, and if a 
problem cannot be clearly identified, a proposed fix most 
likely will not have a meaningful benefit.
    I might also say that to date the Office of Inspector 
General within the Department of Transportation announced the 
initiation of an audit of NHTSA's Office of Defects 
Investigation to conclude an examination of its handling of 
Toyota as well as the broader issue of the process that ODI 
employs to examine and investigate safety defects. The Office 
of Inspector General's objectives are similar to those of this 
hearing and that is simply to determine whether NHTSA has the 
tools and information available to investigate safety defects 
and identify possible improvements to its current procedures, 
and I think that is what this hearing is all about as we move 
forward with NHTSA, and I would yield back the balance of my 
time.
    [The prepared statement of Mr. Whitfield follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.001
    
    [GRAPHIC] [TIFF OMITTED] T6016A.002
    
    [GRAPHIC] [TIFF OMITTED] T6016A.003
    
    Mr. Rush. The Chair recognizes the vice chair of the 
subcommittee, Ms. Schakowsky of Illinois, for 5 minutes for the 
purpose of opening statements.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I am so happy that 
we are having this hearing today.
    Without a doubt, the National Highway Traffic Safety 
Administration's profile has risen dramatically as a result of 
its role in responding to the dangerous problems with Toyota 
vehicles, probably a little higher profile than perhaps you had 
wanted or anticipated.
    This hearing will give us the opportunity to explore 
whether NHTSA has the resources, expertise and authority 
necessary to sufficiently investigate reports of safety 
problems and enforce existing safety rules.
    I want to welcome Mr. Strickland and congratulate him on 
his new position and welcome him to this committee. I know that 
you really are an advocate for consumers and it was really a 
pleasure to be able to work with you earlier on the Consumer 
Product Safety Improvement Act when we worked together when you 
were in the Senate. So I know of your commitment to consumers 
and consumer safety.
    My guess is, though, that right now we will find some gaps 
that need to be filled, and I look forward to working with 
Chairman Rush and the subcommittee and with NHTSA in crafting 
legislation to address those gaps.
    Mr. Strickland, in addition to discussing issues 
surrounding NHTSA's oversight and enforcement activities, I am 
looking forward to begin a dialog with you about children's 
safety in and around cars and other proactive safety measures. 
I appreciate that we had a moment before this 10:00 hearing to 
discuss this a bit. In past year, Congress has enacted 
legislation requiring NHTSA to issue specific safety 
regulations. Dear to my heart has been the Cameron Gulbransen 
Kids Transportation Safety Act signed into law in 2008, 
requiring rulemaking on a rear visibility standard and a power 
window standard, and I know that you are working on both of 
these issues as we speak and it is my hope that both standards 
will be very strong in order to protect children.
    I have to tell you that I think the hardest thing that I 
have done in this Congress, I am in my 12th year now, is having 
parents come with pictures of their children who are no longer 
with us, sometimes because they themselves inadvertently, and 
we know in large part due to design problems actually were 
responsible for those children's deaths. It is just the most 
unbearable thing to think about, that these were preventable, 
and yet these parents have turned this tragedy into a crusade 
to make automobiles safer, not just in traffic but not in 
traffic. And so I am looking forward to working with you to 
create standards that actually do prevent those accidents from 
happening.
    My concern is that in the past that Congress was forced to 
take action because NHTSA was not initiating badly needed 
rulemaking on its own and so I look forward to working with you 
to make sure that NHTSA has all the tools it needs and that it 
uses its tools to protect consumers. I look forward to that 
very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from Iowa, 
Mr. Braley, for 5 minutes.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman. I want to applaud you 
and the ranking member for holding this important hearing.
    It is really an honor to have you here today, Mr. 
Strickland. We haven't met before. You have an important 
responsibility that is too often kept on the back pages of most 
newspapers and magazines, and it is only when something 
dramatic like these Toyota recall hearings comes up that the 
public starts to understand the critical role that your agency 
plays. You look to me like you are a young man, so I don't know 
if you know where you were on December 2, 1994, but I know 
where I was. I was not sitting in that chair, even though I was 
supposed to be sitting in that chair, because I was supposed to 
be testifying that day at a recall hearing on side-saddle fuel 
tank explosions involving CK General Motors pickup trucks, and 
I did not get the opportunity to testify because a settlement 
was reached that day between your agency and the Secretary of 
Transportation and General Motors whereby $51 million was paid 
for supposed consumer safety programs so that the recall 
hearing would not go forward where people like me would have an 
opportunity to talk about the impact on human lives of defects 
that do not get solved, and I was going to testify that day 
about a client of mine, a young woman in Iowa, who had the 
right side of her face burned off when the pickup truck she was 
riding in was involved in a collision and the pickup rolled 
over on its side, and because of the placement of those fuel 
tanks outside the frame rails, the flames went up the side of 
that pickup truck and engulfed her face in flames, and her 
husband, who was driving the pickup truck, pulled her young 
son, who was seated between them, through the broken windshield 
and got him to safety, and when he went back to try to rescue 
his wife, he reached into grab her and pulled out big chunks of 
her hair that had burned off in the fire. And he went back to 
his son and told him Mommy is in heaven now, but miraculously, 
this brave woman survived and went through months and years of 
grueling, painful skin grafts, hair transplants and incredible 
disfigurement because of that defect.
    When we gather for these hearings, we spend a lot of time 
talking in very arcane, technical language about sudden, 
unanticipated acceleration and electronic control safety 
devices, but we rarely talk about the human impact of the 
failure to act, and so when you think about the important 
responsibilities your agency has, it is important not just to 
think about where we are today and where you are going to take 
that agency going forward, it is important to look backwards at 
the legacy of this agency and why there are some people who 
feel it is not fulfilled its responsibility to keep the 
American public safe.
    So I look forward to the opportunity to have a meaningful, 
long-term conversation with you about the important 
responsibilities you have, and I look forward to hearing your 
testimony today as we work together to get to the bottom of 
this unexplained problem, and I yield back.
    Mr. Rush. The Chair now recognizes the chairman emeritus of 
the full committee, my friend from the State of Michigan, Mr. 
Dingell, for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for your kindness 
and courtesy. I commend you for this hearing, which is very 
important, and I also commend you for your fine leadership of 
this subcommittee which you have done a splendid job.
    I want to observe that NHTSA's response to the safety 
defects implicated in these recalls has been sluggish. 
Likewise, NHTSA's decisions to terminate several internal 
analyses related to the defective Toyota vehicles since 2003 
due to a purported lack of resources leave one with the 
impression that the agency lacks the appropriate level of 
personnel and appropriations with which to fill its mandate. We 
want to find out if that is the case today because if that be 
so, then the safety of the American public is of course in 
question.
    As was the case with its sister agency, the Consumer 
Products Safety commission, NHTSA has suffered years of 
stagnation in funding and in many cases has endured a reduction 
in personnel levels, most notably in its important Office of 
Defects Investigation, ODI. Nevertheless, the agency possesses 
a number of powerful enforcement tools, many of which were 
augmented under the Transportation Recall Enhancement 
Accountability and Documentation, or the TREAD Act, of 2000. In 
addition to being able to compel manufacturers to recall 
defective vehicles, NHTSA may impose civil penalties for 
noncompliance and criminal penalties for falsification or 
withholding of information. This in mind, we must ask ourselves 
today why these authorities were not used in the case of recent 
Toyota recalls. Put another way, are the problems with NHTSA's 
response to the recalls better traced to a lack of authority or 
rather to ineptitude and lack of resources. At present, it 
appears that the latter is more persuasive. Although I will not 
discount the possibility that improvement can be made in the 
statutes of conferring NHTSA its authority.
    Our discussion of NHTSA's authorities and resources must 
not lose sight of what I believe to be malfeasance on the part 
of Toyota improperly addressing the problems that led to the 
recall of over 8 million vehicles. To reauthorize NHTSA without 
a view towards compelling better behavior by automobile 
manufacturers would be a self-defeating exercise.
    Two weeks ago, my questioning of Mr. James Lentz, Toyota 
head of sales for North America, indicated that all of Toyota's 
decisions relating to recalls are made in Tokyo. More 
disquieting is the fact that U.S. officials, the Secretary of 
Transportation, and the then-head of NHTSA had to fly to Japan 
to persuade Toyota to initiate recalls in the United States. In 
brief, we must examine how best to oblige automobile 
manufacturers selling vehicles in the United States to comply 
quickly and fully with our regulations and law.
    In closing, I suggest my colleagues bear these comments in 
mind as we begin what must be the first of many conversations 
about improving federal oversight of transportation safety. I 
further ask that these discussions and their resultant 
legislation will be bipartisan, collegial and subject to the 
regular order for these are the hallmarks of this committee's 
best work over the years.
    Mr. Chairman, I thank you for your kindness. I thank our 
witnesses for appearing before us and I yield back the 58 
seconds remaining to me.
    Mr. Rush. The Chair thanks the gentleman for his 
extraordinary kindness.
    It is the normal practice of this committee to swear in the 
witnesses, so would you stand and raise your right hand?
    [Witness sworn.]
    Mr. Rush. Let the record reflect that the witness has 
responded in the affirmative.
    The Chair recognizes himself now for 5 minutes for 
questioning the witness. Oh, I am sorry. The Chair is getting 
ahead of himself. The Chair wants to recognize now the 
administrator, because he has certainly some opening 
statements, so the Chair recognizes the administrator for 5 
minutes for the purposes of opening statement.

TESTIMONY OF HON. DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Strickland. Thank you, Mr. Chairman. To be perfectly 
honest with you, my statement is not as important as the 
committee's questions, so I can understand you wanting to hurry 
up and get to business.
    Mr. Rush. A great beginning.
    Mr. Strickland. Thank you so much for your kind words, all 
of you, and before I begin my formal remarks, I want to just 
take a second to acknowledge Mr. Braley and Ms. Schakowsky's 
note about the human toll. We have a tremendous amount of death 
on today's highways, and I am very happy to report some very 
good news, but 33,000 people is a tremendous amount of people 
to die, and one person is too many, and the personal toll that 
it takes on a family is absolutely catastrophic, and in my time 
that I served as a staffer on the Senate Commerce Committee, I 
have had the opportunity to spend time with countless victims 
including mothers and fathers who have killed their children in 
unfortunate back-over accidents and folks that have been 
disfigured and burned because of traffic accidents, because of 
defects, and you can never properly capture what this means to 
people, so I am fully aware of the responsibility that I have 
and that every day this agency has one goal. That is to keep 
people alive and safe on the road, and we can never do that job 
well enough. We just simply can't. But that doesn't mean that 
we can't try, and we will continue to put forward maximum 
effort as we have to make sure that we accomplish the goals. 
But thank you so much for your observations and they are taken 
well to heart.
    Chairman Rush, Ranking Member Whitfield and members of the 
committee, thank you for the opportunity to appear before you 
today to discuss the Department of Transportation's vision for 
the future of the National Highway Traffic Safety 
Administration and its important safety programs. 
Transportation safety is the Department's highest priority. 
NHTSA's safety programs are an integral part of addressing that 
priority. Even before I was sworn in as administrator on 
January 4th, I knew NHTSA's programs worked and they work well. 
We just released numbers that show a continuing dramatic 
reduction in the overall number of highway deaths. The 
Secretary this morning released a report that projects that 
traffic fatalities have declined for the 15th consecutive 
quarter and will be 33,963 in 2009, the lowest annual level 
since 1954, but we must do more. The loss of more than 33,000 
people represents a serious public health problem to our 
Nation. We will not rest until that number is zero.
    So how do we get there? Highway safety is a complex 
problem, and NHTSA has built a broad spectrum of programs that 
address both behavioral and vehicle-related causes of highway 
deaths. The linchpin of all of our programs is good data, good 
science and careful engineering.
    When I was sworn in 2 months ago, I felt it was important 
to look at whether there was a need to improve NHTSA's 
effectiveness in this era of the global marketplace and rapidly 
changing technologies. One of my first decisions was to 
question whether NHTSA is being well served by the four vehicle 
statutory authorities on which it relies to regulate. The 
reality is, is that while current authority does work and 
various constituencies have learned to work with them, they 
were written in the 1960s and the 1970s when the world and the 
automobile market were profoundly different. The question I 
pose and the questions I want to have is whether NHTSA's 
statutory authorities accommodate the modern automobile, the 
modern competitive marketplace even. More importantly, do they 
allow us to regulate in a way that allows the industry to build 
and sell safe products that the consumer wants to drive? Do 
they allow us to promote safety, innovation and fuel efficiency 
while providing effective regulatory and enforcement oversight? 
I have asked our legal and program staff to take a look at our 
existing authorities to answer these questions and to make 
their best recommendations.
    I believe this self-assessment is critical and supports the 
President's goals for transparency and accountability in 
government, and while we are taking a hard look at our 
authorities, I also commit to look at the current ethics rules. 
I believe the ethics standards set by this Administration are 
the highest ever established by any Administration, and I fully 
support Secretary LaHood's desire to tighten and enforce these 
rules across the Department of Transportation. If there is any 
evidence of any violations of these rules, swift and 
appropriate action will be taken.
    The next question I ask of NHTSA is, do we have the 
programmatic expertise that we need to support our programs? 
NHTSA has a diverse and experienced workforce and we will take 
full advantage of their skills, talent and expertise. If as we 
go forward we find that we need to shore up our workforce in 
certain areas, we will recruit aggressively. We are currently 
requesting the authority to hire 66 more people next year and 
will target these positions to meet our program needs.
    Well, at this point it appears that I am out of time and I 
will cut my remarks here, and I thank the committee for their 
time and their patience and I stand ready for questions.
    [The prepared statement of Mr. Strickland follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.004
    
    [GRAPHIC] [TIFF OMITTED] T6016A.005
    
    [GRAPHIC] [TIFF OMITTED] T6016A.006
    
    [GRAPHIC] [TIFF OMITTED] T6016A.007
    
    [GRAPHIC] [TIFF OMITTED] T6016A.008
    
    [GRAPHIC] [TIFF OMITTED] T6016A.009
    
    [GRAPHIC] [TIFF OMITTED] T6016A.010
    
    Mr. Rush. The Chair thanks the administrator, and the Chair 
recognizes himself for 5 minutes.
    As has been stated, Mr. Administrator, our goal, the goal 
of this subcommittee as it relates to NHTSA is to look forward 
and to determine for ourselves what is the best way that we can 
assist NHTSA in its primary goal of protecting American 
citizens and American drivers. As I looked at this scenario of 
this Toyota incident as a framework, I wonder about the safety, 
the quality or the safety of the automobiles on America's 
highways in general. The question I have is, what reason can 
you give the subcommittee that we should not think that the 
recent Toyota recall that it would not replay itself for any 
other automobile dealer that manufactures automobiles for 
America's highways? Can you assure us that this Toyota recall 
is really just something that is an aberration as it relates to 
automobile safety?
    Mr. Strickland. I will say this, Mr. Chairman, that the 
Toyota recall, while wide ranging, is I think indicative of how 
NHTSA uses its authority in a way to get to the bottom of 
something. When the Secretary of Transportation took office, 
and at the time it was Acting Administrator Medford, they were 
observing certain issues with Toyota and they felt so strong 
about it that Mr. Medford went to Japan to inform Toyota that 
they did not feel that Toyota was holding up its obligations to 
inform and interact with NHTSA in a way to address safety 
concerns and recall concerns. That was the beginning. That 
effort began actually on December 15th. It was the day of my 
confirmation hearing, which is a good reason why the entire 
senior staff regarding defects was actually in Japan and not at 
my hearing. But better that they be there in Japan explaining 
to Toyota what they were doing wrong than sitting in a hearing 
room here in Washington, D.C. When I took office on January 
4th, I was updated about these issues, and Toyota was at that 
point beginning to get the message. I again met with them 
personally for the first time on January 19th, and I learned 
about the sticky pedal situation, and they actually executed 
their stop sale on January 21st. That effort was because of the 
analysis of the NHTSA, the fast action of the career staff and 
the leadership of the Secretary of Transportation. So I don't 
see Toyota as an indicative example of failure, I see it as 
NHTSA doing its job, and when our professionals use the data, 
make the case and go forward, we get the results that we need. 
So I think that Toyota in the wide-ranging recall that it 
executed, that is the type of response that frankly I would 
want as administrator and I think that this agency is 
expecting, and I would hope that in the future that other 
automakers would do the same in the same set of facts.
    Mr. Rush. Can you give the subcommittee any assurances that 
the automobiles right now as far as NHTSA is concerned have a 
level of safety that is greater than what we have experienced 
with Toyota?
    Mr. Strickland. There are two parts of that answer. First, 
I will go back to the success that we just had regarding the 
current data. We have the lowest number of deaths we have had 
since we have been recording this data since 1954. NHTSA is 
succeeding in its mission.
    The second part of your question, do I feel that vehicles 
are generally safe or will be safe and we won't have any other 
issue like Toyota, it is the automakers' responsibility to 
warrant that their vehicles comply with the federal motor 
vehicle safety standards. That is their responsibility. We are 
not branding these cars safe. It is our job to enforce and to 
police the marketplace, which we will do. So as far as I am 
concerned, the automakers have to uphold their obligation to 
not only comply with our standards but basically the state of 
the art. It is my job to make sure that they hold to those 
standards and this agency will hold that line.
    Mr. Rush. The Chair's time is up.
    The Chair recognizes Mr. Whitfield for 5 minutes.
    Mr. Whitfield. Well, Mr. Strickland, thank you again for 
joining us this afternoon. As I said in my opening statement, I 
do think that the agency should be commended because the 
highways really are safer today than they have ever been from a 
statistical standpoint. You would agree with that, I am 
assuming?
    Mr. Strickland. Yes, sir.
    Mr. Whitfield. Now, we have heard a lot--there have been a 
lot of articles written, a lot of testimony recently that NHTSA 
has not fulfilled its responsibility, NHTSA is a lapdog for the 
industry, not a watchdog for the industry, and so there has 
been a lot of criticism out there about the agency. And as the 
administrator, how would you respond to that in just a general 
way? Do you think that criticism is valid or not valid?
    Mr. Strickland. No, sir, it is not valid at all. We have 
been a very active agency since I have taken office. The agency 
has been very active since Secretary LaHood has taken office. 
And from my review of the work done, if we are talking about 
Toyota specifically, this agency opened eight separate 
investigations over the time period when there were complaints 
about sudden acceleration. A lapdog doesn't open eight 
investigations. Now, the goal is for us and our statutory, you 
know, order is to find any vehicle safety defect that presents 
an unreasonable risk. Any time a complaint or any data or any 
anomaly in the number of complaints or what we see from the 
early warning system, our folks take a look at it, they go 
forward and they investigate. If we cannot find the defect, we 
cannot under the statute and force a mandatory recall, but that 
doesn't mean that we think that vehicle is safe per se. At that 
point we cannot make the statutory case but we will keep 
looking, and as we have, we keep looking, and when we find a 
defect such as in the instance of the floor mat entrapment or 
the instance of sticky pedal or in the instance of the 2010 
Prius brakes, we act and we act quickly. I don't think that the 
history of our action in this area before I took office or in 
the 10-year period that a lot of people are looking at, I think 
that this agency has been quite active.
    Mr. Whitfield. Now, if you find a defect, then you can 
require a mandatory recall. Is that correct?
    Mr. Strickland. Yes, sir, we can.
    Mr. Whitfield. And I have heard a lot of discussion about 
subpoena power, and it is my understanding that you can issue 
information requests.
    Mr. Strickland. Yes, sir.
    Mr. Whitfield. And do the manufacturers have to respond to 
that request? Is it----
    Mr. Strickland. There is a difference between a subpoena 
and an information request. I know a lot of people talk about 
we have subpoena power and yes, we can compel a subpoena for 
documents. We say we want every document you have on a 
question, and yes, they have to give that to us. Information 
requests, they also have to respond, but it has actually a 
better purpose. We not only get documents, we actually ask 
direct questions that they give us answers to. It is a much 
sharper tool and the agency uses that quite frequently. In 
fact, we sent three queries to Toyota, three large queries, 
regarding the timeliness of their submission of information to 
us regarding the floor mats and the sticky pedal, and we sent a 
large recall query asking Toyota for all their information and 
answer questions about all of sudden-acceleration incidents, 
which will be a large amount of documents and data for us to 
review. If we find in the review of those documents that there 
is a violation, we will move forward accordingly.
    Mr. Whitfield. Now, have you found the lack of subpoena 
power a hindrance to the agency doing its job effectively?
    Mr. Strickland. In my review of the work on Toyota, they 
have been able to--while Toyota has been slow in years past, I 
will say that they have not been as responsive as my career 
staff feel they should have been in responses. Since I have 
been in office, they have been very responsive, and I would 
hope that that would continue in the future. But in terms of 
our subpoena, our ability to get information requests issued 
and responded to, I have gotten no evidence that that has been 
a problem in terms of getting a response.
    Mr. Whitfield. Now, I know most of your budget money goes 
to the States for grants and then the rest is spent basically 
between behavioral safety and vehicle safety. Is that correct?
    Mr. Strickland. That is correct, sir.
    Mr. Whitfield. And I know in 2005, Congress directed NHTSA 
to conduct a national motor vehicle crash causation survey, and 
at that time they came back and they said that 95 percent of 
crashes were due primarily to driver fault or negligence. Are 
you familiar with that study or do you have any thoughts on 
that?
    Mr. Strickland. I am tangentially familiar with it. I can't 
give you song, chapter and verse about the study but I can talk 
sort of in more specifics about behavior. That is the largest 
component of risk on the highway, which is the reason why the 
NHTSA budget is designed to attack the highest risk. Impaired 
driving, not wearing belts, driving distracted, those are all 
the hugest risks for everyone on the road today. Vehicle 
defects are important. We have to address them. They are 
significant. But in terms of the overall risk profile for 
highway safety, the behavioral side of the house, so to speak, 
comprises the largest risk and that is the reason why our 
program for safety is designed the way it is.
    Mr. Whitfield. Thank you.
    Mr. Strickland. Thank you, Mr. Whitfield.
    Mr. Rush. The chairman emeritus is recognized for 5 
minutes.
    Mr. Dingell. Mr. Chairman, I thank for your courtesy.
    My questions in view of the time shortage have to require 
yes or no answers.
    Mr. Strickland. Yes, Mr. Dingell
    Mr. Dingell. Mr. Administrator, do you believe that the 
NHTSA made mistakes in its response to the recent Toyota 
recalls?
    Mr. Strickland. No, sir, I do not.
    Mr. Dingell. Should NHTSA have pushed Toyota to initiate 
recalls earlier than it did?
    Mr. Strickland. Sir, we pushed the recalls when we had the 
evidence of an unreasonable risk defect.
    Mr. Dingell. But yes or no?
    Mr. Strickland. The answer is yes, we responded 
appropriately.
    Mr. Dingell. OK. Thank you. What authorities does NHTSA 
lack whether under TREAD Act or otherwise with which to address 
defects in automobiles deemed hazardous to public safety? 
Please submit that answer for the record.
    Mr. Strickland. Yes, sir.
    Mr. Dingell. Now, yes or no, does NHTSA have in place a 
ranking system for determining the priority of defects 
investigations, yes or no?
    Mr. Strickland. The answer is no, but we rank risk by 
profile internally. There isn't a one through ten.
    Mr. Dingell. Thank you. Now, there seems to be broad 
agreement about the need to increase resources available to 
NHTSA to carry out its mission. Do you need additional 
resources, yes or no?
    Mr. Strickland. The President's budget gives us more 
resources, so----
    Mr. Dingell. Do you need more?
    Mr. Strickland [continuing]. When the President's budget is 
passed, we will have the resources we need.
    Mr. Dingell. Please submit to us for the record how much 
more resources you need in what area.
    Mr. Strickland. Yes, sir.
    Mr. Dingell. I want that submitted directly to the 
committee and not through OMB.
    Mr. Strickland. Yes, sir.
    Mr. Dingell. Now, in my questioning of James Lentz, 
Toyota's chief of sales for North America, he revealed 
decisions to recall Toyota vehicles sold in North America are 
made in Japan. Do any other manufacturers require that your 
information for details or decisions made relative to recalls 
are made in any country outside this United States? Is Toyota 
unique in that, yes or no?
    Mr. Strickland. It appears Toyota is unique, yes, sir.
    Mr. Dingell. All right. It strikes me that this is a bad 
situation insofar as safety of the American people. Am I 
correct or wrong?
    Mr. Strickland. The system that Toyota uses could be much 
more efficient.
    Mr. Dingell. By requiring them to have a response to be 
made in the United States by somebody empowered to comply with 
our laws. Is that right?
    Mr. Strickland. I would feel that if they had somebody in 
America to respond directly, we could act more quickly.
    Mr. Dingell. Now, I would appreciate it if you would submit 
to us for the record how this would be corrected.
    Now, is there a quantitative difference in response times 
between domestic and foreign automobile manufacturers to 
NHTSA's data inquiries, yes or no?
    Mr. Strickland. The domestic manufacturers tend to respond 
faster than the foreign, yes, sir.
    Mr. Dingell. What is the cause for this?
    Mr. Strickland. There are several reasons in terms of 
design of leadership, as you mentioned, and other factors.
    Mr. Dingell. In the case of Toyota, it is because the 
information has to be procured from Toyota instead of receiving 
it directly from here. Is that right?
    Mr. Strickland. That has been identified by Toyota itself 
as a problem.
    Mr. Dingell. This is also true with regard to the question 
of recall?
    Mr. Strickland. Yes, sir.
    Mr. Dingell. The decision is made in Tokyo?
    Mr. Strickland. That is correct.
    Mr. Dingell. Now, is there a qualitative or quantitative 
difference in the data provided to NHTSA by domestic and 
foreign automobile manufacturers?
    Mr. Strickland. The quality is--because they are 
statutorily required, the quality of data is very similar 
between foreign and domestic.
    Mr. Dingell. Similar?
    Mr. Strickland. Similar.
    Mr. Dingell. That doesn't it is the same.
    Mr. Strickland. They have different data sets because of 
their manufacturing and information processes. They comply to 
our system so they are similar.
    Mr. Dingell. All right. Now, why was it that the Secretary 
of Transportation and the acting head of NHTSA had to go to 
Tokyo to get cooperation of Toyota on recalls and production of 
information?
    Mr. Strickland. They were responding to NHTSA and the 
acting administrator and the Secretary too slowly.
    Mr. Dingell. But they had to go over there. Why did they 
have to go over there?
    Mr. Strickland. Because at the time, the Secretary and the 
acting administrator felt they needed to go directly to convey 
that message.
    Mr. Dingell. So they had to convey that message because the 
message was to urge Toyota to comply more expeditiously with 
the safety concerns of the Department of Transportation?
    Mr. Strickland. That is correct.
    Mr. Dingell. So they had to do it to get more expeditious 
cooperation from Toyota?
    Mr. Strickland. Yes, sir, that is correct.
    Mr. Dingell. Thank you.
    Mr. Chairman, I thank you for your courtesy.
    Mr. Rush. The Chair now recognizes Ms. Schakowsky for 5 
minutes for questioning.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    On September 1, 2009, proposed rules were put out dealing 
with the automatic reverse system in windows. Let me quote: 
``NHTSA proposes requiring automatic reversal systems, ARS, in 
those windows equipped with one-touch closing or express up 
operation.'' In a letter March 10, 2010, sent to you, Mr. 
Strickland, Henry Waxman, Chairman Rush and myself point out 
that such windows generally already have auto reverse 
technology and are usually found in the driver's window where 
children don't sit, and the intention of the legislation of 
course was to protect children. But here is really the point I 
want to make that I find stunning is that you have a chart. 
This was alternative one of five alternatives that were 
proposed at that time. This is before your tenure. Alternative 
one is the one I described, and when it says on this chart cost 
per window for this remedy supposedly, it says zero dollars, 
total incremental cost near zero dollars, annual fatality 
benefits zero, annual injury benefits near zero. So the 
preferred alternative to protect children was a no-cost, no-
benefit solution. I would have thought it embarrassing actually 
not only to put that in writing but to choose that as the 
preferred option. I would hope that nothing like that happens 
again.
    Let me describe alternative two, requiring auto reverse 
windows at all power side windows to meet ECE 21, which is 
European standards. The cost per window, $6, which I think most 
people would find reasonable, the total incremental cost, 
$149.4 million. Annual fatality benefits, two, annual injury 
benefits, 850. So two deaths and 850 injuries, which I think is 
a pretty modest projection, pretty conservative, could be 
saved. That was at 6 bucks a window. Again, I want to go back 
to those families that came talking about children who were 
choked by these windows. It has got to be maddening to them 
that this is something that could have been corrected for $6 
and that that is the European Union standard, why isn't it the 
standard here. So really my request is that we reject this 
alternative one, but how does that happen? Can we expect that 
it will not happen any more, that a no-cost, no-benefit 
solution will not be proposed?
    Mr. Strickland. As you know, Representative Schakowsky, I 
can't engage in a discussion about a rule that is currently 
being worked on by NHTSA, but I understand that we have 
received new data from a lot of constituencies including the 
folks that have worked very closely with you and other members 
on the Cameron Gulbransen Act and the agency is taking a very 
hard look at that data, and when the rule is finally 
promulgated, we hope that we will be-- I know for a fact it 
will be based on sound data and sound science that will be the 
most efficacious of safety. So that is the one thing I can tell 
you.
    Ms. Schakowsky. Well, let me make a very strong 
recommendation that you don't propose rules that have 
absolutely no effect when the Congress stated very clearly that 
we want to protect children, and I am sure you will agree with 
that, so I thank you very much, and I yield back, Mr. Chairman.
    Mr. Strickland. Thank you, Representative.
    Mr. Rush. The Chair recognizes the gentleman from Iowa, Mr. 
Braley, for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    Mr. Strickland, in your opening statement that we received, 
the written statement, on page 1, third paragraph, you wrote, 
``One of the first questions I asked when I became the 
administrator of NHTSA is whether or our current statutory 
authority drafted largely in the 1960s and 1970s is sufficient 
to address the modern automobile and global automotive 
marketplace.'' Have you answered that question?
    Mr. Strickland. That question is still being worked on by 
the staff. I have a great deal of experience in looking at 
consumer product safety statutes from my prior employ, and you 
have to be very careful in examining these things. We have to 
make sure that there is a lot in those statutes that are very 
functional and works well, and we want to look to improve upon 
a strong authority, and both my legal staff and my programmatic 
staff are undertaking that work right now. When we have 
completed that work, we will be happy and excited to share our 
thoughts with the committee and looking forward to working with 
you on a going forward basis.
    Mr. Braley. And I look forward to having that conversation, 
and let me get back to one of my earlier points about the 
legacy of the agency that you now head, because in your 
statement, you noted correctly that safety is the Department of 
Transportation's highest priority, and you stand by that 
statement today?
    Mr. Strickland. Yes, sir, absolutely.
    Mr. Braley. And we know that the Office of Defect 
Investigation, often referred to by its acronym, ODI, is on the 
front line of defect investigation and prevention as part of 
the Department of Transportation.
    Mr. Strickland. Yes, sir, that is correct.
    Mr. Braley. And Mr. Whitfield asked you a very appropriate 
question when he said you have mandatory recall power and you 
answered yes. Do you remember that?
    Mr. Strickland. Yes, sir.
    Mr. Braley. Can you explain to all of us then why your 
agency, NHTSA, has not initiated a recall since 1979?
    Mr. Strickland. Because you can often influence a recall by 
going through the initial stages of the process. Most times an 
automaker will not want to go through the full formal process. 
It takes approximately a year. It is a public process, and a 
lot of automakers, realizing they are facing public scrutiny of 
fighting a vehicle safety defect, and when they know that the 
agency can prove it, they will go forward and effectuate a 
voluntary recall. The universe is that most recalls are 
voluntary--all recalls since that period of time are voluntary 
but there is a huge number that are influenced by this agency 
and that is the actual we want you to look at, and we influence 
well over half of the recalls that happen ever year. So that is 
the real number, Mr. Braley. I think that is indicative of the 
power of ODI. We don't have to get to a point where the 
administrator after a year of public hearings and show-cause 
hearings has to sign an order. Automakers will go forward and 
take care of that recall voluntarily from ODI's work.
    Mr. Braley. Well, count me as skeptical that in a 31-year 
period there has not been an instance where automakers acted 
responsibly in every particular case responding to demand for 
recall of a product defect in a 31-year period.
    One of the things that I also want to talk to you about is 
how you described the agency's mission has changed in response 
to changes in the automotive industry. Do you remember that in 
your opening remarks?
    Mr. Strickland. I don't think I will change it a change in 
mission but it is a change in how we have to approach the job 
because of the change in the marketplace. There was a time when 
America was the world's leader in automotive manufacturing. We 
are no longer that leader.
    Mr. Braley. Well, I am talking about something different so 
I want to make sure you understand.
    Mr. Strickland. I apologize, Mr. Braley.
    Mr. Braley. When I was growing up, it was during the muscle 
car era where you could tear apart a Chevy large block engine 
in your basement and put it back together having a basic 
knowledge of the internal combustion engine. You cannot do that 
anymore. Would you concede that?
    Mr. Strickland. I agree, yes, sir.
    Mr. Braley. And one of the things that came out during our 
earlier hearing was this concept of black-box technology that 
has crash data in it that is driven by complex computer codes, 
sometimes which the manufacturer is willing to share with your 
agency and sometimes manufacturers have been very reluctant to 
share that data or to provide an ability for your own employees 
to have the keys to the kingdom so that they can download and 
interpret that information independently. You would agree with 
that?
    Mr. Strickland. Yes, sir, I agree.
    Mr. Braley. So one of the things that I am concerned about 
is our own internal committee report for this hearing suggests 
that your agency's budget dedicated to vehicle safety has 
remained stagnant relatively over the past 10 years and that 
your resources are far below the resources that were available 
for this type of investigation than when the agency was at its 
height, and my concern is, based upon some of the testimony at 
the previous hearing, when you have a demand for computer 
engineers and electrical engineers and people who are not based 
on mechanical backgrounds, I am concerned that the level of 
funding and the staffing of personnel within your agency may 
not be adequate to meet the incredible demands of the changing 
technology of this automobile industry. Have you done an 
independent review since assuming responsibility to make your 
own independent judgment on whether or not that is a critical 
case we need to address?
    Mr. Strickland. I have a couple of responses to that, Mr. 
Braley. The work of ODI and the automotive engineers that do 
the work, they are some of the finest in the business in this 
country, and as the technology evolves, the experience of our 
investigators and our engineers also evolves. I can give you 
the quantum number of folks that we have on deck to do the job. 
We have 125 engineers in NHTSA. We have five electrical 
engineers. We have a software engineer. We have engineers that 
are based in our East Liberty, Ohio, facility. We have 
resources for consultants when we need additional expertise. My 
understanding from what I know from when I have taken office, 
there is not a notion that we don't have the proper expertise 
to handle today's automobiles. I don't think that is the case 
at all.
    However, recognizing that you can always buttress what you 
have, the President has provided us resources to hire 66 new 
people, which we will use to leverage our resources and to 
buttress and strengthen those folks, in addition to we will be 
looking at ways how we can do longitudinal studies and long-
range studies on these complex systems, as the Secretary spoke 
about in the prior hearings. Is my confidence that we can 
handle the current marketplace with our expertise? Yes, we can. 
Can we be stronger in that area? Of course we can.
    Mr. Braley. Of the 62 employees you have identified that 
are in the President's budget request, how many of those do you 
propose to allocate to ODI?
    Mr. Strickland. That is part of the process I am working 
with the career staff and with the Office of the Secretary to 
figure out what our resource needs will be in that area. I will 
be happy to come forward with that information when a decision 
is made.
    Mr. Braley. Can you also provide the committee with a 
breakdown of the people working at ODI with engineering degrees 
by their names, their job titles and what their particular 
expertise in terms of being a professional engineer is?
    Mr. Strickland. I would be happy to do that, Mr. Braley.
    Mr. Braley. Thank you. I appreciate that, and I yield back.
    Mr. Rush. The Chair recognizes now the gentlelady from 
Michigan, Ms. Sutton, for 5 minutes.
    Ms. Sutton. Thank you, Mr. Chairman.
    Mr. Rush. Ohio. I am sorry.
    Ms. Sutton. I am close to Michigan but I am from Ohio.
    Mr. Rush. I apologize.
    Ms. Sutton. That is OK.
    Administrator Strickland, thank you for being here. I have 
a number of questions and they touch on different areas, so 
bear with me as we shift around.
    Beginning with the question of the black-box technology, we 
have heard a lot about when Secretary LaHood was here he 
indicated difficulty getting the information that is in those 
black boxes, that we don't have the capacity, whether it is, as 
my colleague, Mr. Braley, described, that we don't have keys to 
the kingdom, which is that information. But when I heard you 
answer Representative Dingell about having access to data, you 
said we have access to data in a similar way whether it is 
Toyota, who keeps information in Japan, and our domestic auto 
industry. But I was under the impression based on the last 
hearing that we actually could access information from our 
domestic auto manufacturers in a way that we can't get from 
Toyota. So could you clarify for me?
    Mr. Strickland. I would be happy to clarify. I took from 
Mr. Dingell's question about early warning reporting data, 
which is the quarterly data we receive from all automakers, 
which is a set template of data that we receive. There are some 
differences in how they collate and present it but we can 
understand all of that. That is what I thought he meant.
    In terms of event data recorders, you are absolutely right, 
Representative Sutton. Toyota has a proprietary system that up 
until I guess a week or so ago there was only one tool in the 
country that could be used to read it and we did not have that 
tool. So if we ever wanted to get information from an event 
data recorder on a Toyota vehicle, it was very difficult. It is 
my understanding that Toyota has provided my ODI staff three of 
these tools to read their event data recorders. I am not sure 
of the status of whether we have received them all yet but that 
is my understanding, that Toyota has promised to us that they 
will provide those tools. So in terms of Mr. Dingell's 
question, in terms of the set data that comes in to us 
quarterly from all automakers, yes, it is similar. On your 
question on event data recorders, yes, there is a difference 
between the Detroit automakers, which all use a commercially 
available tool and we have the ability to read it, versus 
Toyota, where we could not up until a week ago.
    Ms. Sutton. And now that you have this equipment, that was 
the only hindrance to having access to the black boxes? You can 
get them? You can always get access?
    Mr. Strickland. We can access it, Representative, but we 
still need a Toyota representative to help decode the data. It 
isn't fully transparent, even when we download the box. So I 
still believe that we need Toyota representation to assist us 
in decoding what happened 5 seconds pre crash and 1 second post 
crash I believe is the data that is being included in those 
boxes.
    Ms. Sutton. And is that something that they are required in 
any way to do or is that just a voluntary offer on their part?
    Mr. Strickland. At this point we are undergoing rule. By 
2012, if an automaker chooses to have an EDR on board, it has 
to comport with certain readability and data standards but they 
don't have to have an electronic data recorder on board. It is 
not mandated.
    Ms. Sutton. Well, that is interesting. We will have to 
follow that and see what the consequences intended and others 
are of that rulemaking.
    OK. With respect to what we have been reading, we have been 
reading in the Washington Post about the relationship between 
some of those who used to work at NHTSA and going over to work 
for some of the car companies, and in this moment, Toyota is in 
the headlines, and so the Post article mentioned that two 
former NHTSA defects investigators left the agency and 
immediately took jobs at Toyota managing federal defect 
investigations. Do you think that there is an apparent conflict 
of interest here? You know, we are charged, as Members of 
Congress, with ensuring that the public interest is always the 
key, and you can understand that people are more than a little 
concerned when they see sort of that cozy, quick turnover 
revolving door. Could you comment on that?
    Mr. Strickland. Certainly. I have two responses to that, 
Representative. No ethics laws were broken. You know, Mr. 
Santucci and Mr. Tinto, who are former employees of NHTSA, when 
they left their post employment, they were of the level of 
employee--everything that they did was fully compliant with the 
current federal laws regarding post-employment limitations. So 
no laws were broken.
    But I am not going to quibble with you on appearance. 
Perception is reality. And the Secretary was very clear in his 
statement to this committee and to Oversight and Government 
Reform and to the Senate Commerce Committee on this issue. He 
is committed to strengthening the ethics requirements in the 
Department of Transportation. I fully support his efforts, and 
as far as I am concerned, I am going to hold every employee in 
NHTSA to the highest ethical standard as the Secretary holds 
everybody in DOT to the highest standard and frankly the Obama 
Administration has made it a focal point that this will be the 
most ethical Administration in history. So we are looking 
forward to working with you on a going forward basis in dealing 
and handling this issue of appearance and arms-length distance 
for employees of NHTSA and when they move into a post-
employment situation.
    Ms. Sutton. I appreciate that answer because the public 
trust is critically important in making sure that things are 
working as they should, and, Mr. Chairman, if I could just 
indulge in one last question.
    During the hearings that we have had in the past with 
representatives of Toyota and Secretary LaHood, we heard 
information about how recalls of vehicles had happened in other 
countries, and these recalls, you know, stemming from what 
appear to be problems that arose here in this country and led 
to eventual recalls after much tragedy had occurred. Is there 
anything that requires auto manufacturers to report to NHTSA 
problems beyond our borders with vehicles that are sold in this 
country?
    Mr. Strickland. Yes, there are a couple of requirements 
actually. They have to report to us foreign recalls that 
involve components used in United States vehicles and they have 
to also report foreign service campaigns in the vehicles. Now, 
the question is whether they did this timely. We definitely 
will investigate those issues. But we receive a lot of data 
from the early warning system and other obligations from the 
TREAD Act and we are definitely looking at other ways and other 
types of information that could be helpful to us in that 
mission and we are looking forward to working with the Congress 
and finding ways that we can buttress those abilities.
    Mr. Rush. We see that Mr. Markey has joined the 
subcommittee. He is not a member of the committee, so the Chair 
seeks unanimous consent that Mr. Markey be allowed to ask 
questions of the witness, and hearing no objection, so ordered. 
Mr. Markey, you are recognized for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman. Thank you for your 
hospitality.
    As you know, the early warning system that I helped to 
create during the 2000 TREAD Act was intended to provide the 
Department of Transportation and the public with early 
information that auto manufacturers receive about safety-
related complaints. But the Bush Administration issued a 
regulation that deemed almost all of the information automakers 
to be confidential business information. As a result, as far as 
the public is concerned about my provision back in 2000, the 
early warning system has become an early warning secret. I have 
a summary here of the public information contained in all of 
the early warnings submitted by Toyota in the last quarter of 
2008. It tells you that there were seven reports of deaths or 
serious injuries due to speed control but that is all the 
information you get. The public can't learn whether those 
reports relate to sudden unintended acceleration. They can't 
learn what happened and they can't learn whether any consumers 
made complaints about similar problems that didn't result in a 
serious injury or death.
    Do you agree that the public versions of early warning 
system data don't really tell the public anything specific or 
useful about potential automobile safety problems?
    Mr. Strickland. Mr. Markey, the one thing I would like to 
start off with saying is that the NHTSA databases and the 
information we provide are some of the most transparent in 
government, and we have been noted by the federal government 
about our data sources that we provide.
    In terms of the early warning system, as far as the Obama 
Administration is concerned, as far as I am concerned as 
administrator, the more transparency we have, the better. I 
definitely would like to have a dialog with you about the early 
warning reporting system and your thoughts on how we can 
improve transparency going forward.
    Mr. Markey. Now, consumers can report safety complaints to 
NHTSA as well and these reports are made public. Does it make 
sense to you that when a consumer reports a safety problem 
directly to NHTSA, it goes into a publicly searchable database, 
but when a consumer not knowing that they could complain to 
NHTSA instead reports the safety problem to a car company, that 
it becomes confidential business information without a 
requirement that the public learn about it? Do you think that 
is right or do you think that that information should as well 
have to be made public because it is given to NHTSA as part of 
a public report?
    Mr. Strickland. I clearly see that inconsistency. This 
Administration believes in transparency. I would happily talk 
to you on a going forward basis how we can make our databases 
more transparent.
    Mr. Markey. Do you think that information should be 
information that the public, me as an owner of a Toyota Camry, 
should I have had that information?
    Mr. Strickland. That information should not be hidden, in 
my personal opinion. However, there are other things that 
should come into play and I would be happy to talk to you on a 
going forward basis.
    Mr. Markey. When President Clinton signed the Act into law, 
he directed the Department of Transportation to implement the 
early warning system in a manner that ensures maximum public 
availability of information. That clearly hasn't happened. So 
my goal is to work with you, sir, in order to accomplish that 
goal. We thank you for taking this job, by the way.
    Mr. Strickland. Thank you, Mr. Markey.
    Mr. Markey. And we have enjoyed working with you over all 
the years, especially on the fuel economy standards and your 
work in the Senate.
    Let me ask if I may one final question. Although NHTSA can 
undertake a mandatory recall, doing so takes a great deal of 
time and can require you to go to court to prove the existence 
of a safety defect. There are times, however, when taking that 
long costs lives. As you know, since you were the lead staffer 
in the Senate 2 years ago, Congress gave the Consumer Product 
Safety Commission the authority to quickly inform the public of 
an imminent product safety hazard, even though the formal 
recall process was complete. Do you think that sort of 
authority could help NHTSA more effectively protect and inform 
the public of serious safety problems, and will you work with 
us to develop such a provision?
    Mr. Strickland. The imminent-hazard authority, Mr. Markey, 
is in several of our sister consumer safety agencies. The 
Federal Rail Administration, for example, has this authority 
and it has proven to be very helpful to them. I look forward to 
working with you and having a further discussion on this 
authority. It has proven very successful in other areas in 
consumer protection and it may bear fruit for NHTSA as well.
    Mr. Markey. Thank you, and our country is very fortunate 
that you were willing to accept this position.
    Mr. Strickland. Thank you, Mr. Markey. That is very kind.
    Mr. Markey. Thank you, sir.
    Mr. Rush. The Chair will ask the indulgence of the witness 
just for a few more minutes. The Chair will authorize a second 
series of questioning, and the Chair recognizes himself for 2 
minutes.
    NHTSA's budget for vehicle safety programs has been 
stagnant, as was mentioned earlier, for the past 10 years. From 
my perspective, this year's budget request is down a few 
million dollars from the year before. ODI, which focuses its 
enforcement activities on new cars sold within the last 5 
years, has a budget of less than $10 million to police a fleet 
of 80 million vehicles, and according to the Chicago Public 
News, adds up to about 10 cents a car. The budget for 
rulemaking has suffered as well. It has delayed major 
rulemaking efforts to the point that Congress has been 
compelled to legislate mandates for rollover standards and for 
child safety. I know that there is an increase of about 66 new 
personnel but if you get more resources for your safety 
programs, where would you focus those increased resources?
    Mr. Strickland. Well, Mr. Chairman, you know, the safety 
mission is not simply in the ODI or the vehicle safety office. 
It is actually our entire mission. It is the behavioral side as 
well. And the President's budget provides resources for us to 
accomplish our mission with the new resources for those 
personnel. We will take a hard look at those 66 personnel and 
deploy them at the places where we need not only to improve and 
strengthen the Office of Defects Investigation but in other 
places where we can also help further our safety mission in the 
most efficient way.
    In terms of resources overall, we have accomplished our 
mission with the resources we have had. The President has given 
us a budget that gives us more resources to do more and we will 
use that for the safety mission.
    Mr. Rush. This Congress has to prepare a budget. The 
Congress has to approve a budget. Would you have any objections 
if we gave you more than a budget for 66 employees?
    Mr. Strickland. Mr. Rush, the President's budget helps us 
accomplish our mission. If the decision of the Congress is to 
provide us more resources, we will use them judiciously for the 
purposes of improving safety.
    Mr. Rush. Sounds like a good answer to me.
    Mr. Whitfield for 2 minutes.
    Mr. Whitfield. I would just say, I don't know how much more 
we have to give you, but thank you.
    Mr. Rush. With that said, and seeing no more members 
seeking recognition, Mr. Administrator, you have done an 
excellent job. We thank you very much. And again, please 
forgive us but our duties have taken us away and so we weren't 
able to be as prompt as we wanted to be beginning this hearing, 
so thank you for your patience.
    Mr. Strickland. No, thank you, Mr. Rush. It has been an 
honor. Thank you, sir.
    Mr. Rush. Thank you.
    Mr. Strickland. Mr. Whitfield, thank you.
    Mr. Rush. The second panel will please be seated at the 
desk. The Chair thanks the second panel for your patience, and 
again, we want to reemphasize our apologies to you for our 
scheduling. It has been fairly horrendous and it has taken us 
away from our scheduled duties. And so please accept our 
sincere apologies.
    The Chair wants to introduce the witnesses now that 
comprise the second panel. On my left is Ms. Joan Claybrook. 
She is the former administrator for the National Highway 
Traffic Safety Administration, and Ms. Claybrook, we want to 
welcome you here once again. Seated next to Ms. Claybrook is 
Ms. Ami Gadhia, and Ms. Gadhia is the safety policy counsel for 
the Consumers Union, and Ms. Gadhia, we want to welcome you 
also to this hearing. And lastly we want to not just recognize 
but we want to also say hello to our former colleague, who was 
a member of this House, a very able Member representing the 
State of Oklahoma for many years, a very bright and intelligent 
human being, the Hon. David McCurdy, who is the president and 
the CEO of the Alliance for Automobile Manufacturers. Dave, it 
is good seeing you again and we welcome you again to this 
subcommittee hearing.
    Now we want to recognize for 5 minutes for the purposes of 
an opening statement the illustrious Ms. Joan Claybrook.

 STATEMENTS OF JOAN CLAYBROOK, FORMER ADMINISTRATOR, NATIONAL 
 HIGHWAY TRAFFIC SAFETY ADMINISTRATION; AMI V. GADHIA, SAFETY 
 POLICY COUNSEL, CONSUMERS UNION; AND DAVE McCURDY, PRESIDENT 
       AND CEO, THE ALLIANCE OF AUTOMOBILE MANUFACTURERS

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you so much, Mr. Chairman.
    I am the last person to have required an auto company to do 
a recall, and that was 31 years ago, and I would like to say 
that when you do find a defect, the auto companies will often 
do a recall and you do not have to go to court. But sometimes 
you do have to go to court, and I think that there has been, 
and the Toyota case, I think, elaborates on this. I think there 
has been a misconception on what a defect is, and in the last 
case that was litigated by the Department of Transportation on 
this issue, the federal Court of Appeals made several important 
comments which I would just like to mention to you. This is not 
in my testimony. I hope my whole testimony will be in the 
record. But I think that this is a very important issue. It has 
come up now several times in recent days.
    What the court said was, to find a defect within the 
meaning of the Act, the NHTSA must show that the vehicle itself 
is defective whether the defect manifests itself in 
performance, construction, components or materials of the 
automobile. In other words, it can be a performance defect and 
they do not have to show that there are five or 500 or 10,000 
consumer complaints that have arisen, and often in fact those 
complaints are not allowed in court as evidence. So if the 
agency relies on it, then it is not going to have them find a 
successful result.
    Judge Leventhal, who was a Court of Appeals judge in a 
different case, said that a determination of a defect does not 
require any predicate of identifying engineering, metallurgical 
or manufacturing failures. A determination of a defect may be 
based exclusively on the performance record of a vehicle or 
component.
    Now, I think that this changes if you look at the Toyota 
case, and I know this is not just about Toyota but it is about 
the agency. It changes the way the agency should approach these 
defect investigations, and I do think that the agency has 
fallen into a trap, if you would, with the Toyota case and 
others, where it seems to be accepting the burden of having to 
define what the defect is in terms of the failure of 
performance. That is the responsibility of the manufacturer. 
The manufacturer put that vehicle together. They did the design 
drawings. They make the profit from it. And how this happens is 
their responsibility. If it has a failure in performance, the 
agency can find a defect and the company has to fix it and the 
company has to figure out what that fix is. That is what the 
courts have said, and I think it is very important to make that 
clear.
    My testimony that I submitted has seven points that I would 
like to just mention very briefly. One is that there has been a 
low priority on enforcement in the agency, a lack of resources, 
which you all have discussed, but there is another key issue 
which is that a court of appeals in the mid-1980s found that 
consumers did not have authority under the existing statute to 
sue if a defect was not found by the agency. In other words, if 
a case is closed, there is no authority of consumers to go to 
court. There is authority for consumers to go to court if a 
rulemaking decision is made that we don't think is proper, and 
we in fact have gone to court at Public Citizen on many, many 
occasions and helped to make the statute work better because of 
the cases that we have brought. We have brought them on uniform 
tire quality grading, the tire monitoring system for the amount 
of inflation in the tire, on the early warning system, which 
was kept secret, totally secret. We at least got part of it 
revealed in two different lawsuits. So we can sue when there is 
a rulemaking issue. We cannot sue when there is a defect 
disclosed, and I think that changes the balance of thinking by 
the administrator. There is no fear that if they close a case 
that it is finished, and what the court there said in the court 
of appeals in the mid-1980s was that the agency had the 
discretion to figure it out according to their resources and so 
in every case that NHTSA closes, it says it closes it on the 
basis of resources. They just are mimicking the words of the 
court decision. But the fact is that we should have that 
authority because we are not going to bring cases we don't 
think we can win because that is a waste of our time and 
energy, and I think there ought to be a better balance of power 
because if the agency finds a defect, then the company gets a 
change to get its words and say what it thinks, and if we bring 
a case, they can intervene.
    Secondly, the agency has been engaged in excessive secrecy. 
The early warning system, which Mr. Markey talked about, is a 
good example, and as I said, we had to sue to make it 
available. We don't even know how many times Toyota in the 
recent cases filed an early warning report to the agency and 
what it said and how many consumer complaints it had and how 
many warranty claims it had and how many field reports it had. 
All of that is secret. And if that were more open, then the 
public would have access to it and they could help the agency 
by letting them know when they had a problem, but their web 
page in addition is a mess, so if you went to the web page to 
try and figure out whether there have been early warning 
reports on the particular vehicle that you are driving that is 
not working right, you wouldn't be able to figure it out. I 
wouldn't be able to figure it out.
    The third point is that I think the penalties that the 
agency has authority to impose are insufficient. First, they 
should have the criminal authority for knowing and willful 
violation of the Act, which you put in the CPSC law most 
recently a year ago. It is in the FDA law. It is many of the 
sister agency laws. I think the same should be available for 
NHTSA. And in addition, the penalty for the civil penalty is 
$16.2 million, which is a flyspeck for companies like Toyota. 
They spend that much in half a day on their communications 
activities and staff. So we think that it ought to be $100 
million because that is something that they would pay attention 
to.
    Fourth, the agency is drastically underfunded. The total 
budget for the motor vehicle program for the whole United 
States is $132 million in this agency. That is it. And it is 
not much above what it was when I was there just individual 
dollars, and in terms of inflation, it is way below. It has 
been drastically cut. By the way, those 66 new FTEs that were 
being discussed, it is actually only 33 full-time ones. So that 
is not really 66. And in addition, they have allocated them. 
Twenty-three are for operations and research, eight for 
rulemaking, four of them for enforcement. So that is the 
tentative allocation. Now, they may be changing that and 
reconsidering it but that is what was in the budget. So the 
agency cannot handle the programs, the rulemaking programs 
which are critically important, as important certainly as the 
defect enforcement because of lack of capacity.
    Information gathering and the data systems are totally 
insufficient. They should have been funded at four or five 
times what they are now, given the design of these systems back 
when they were first created in the 1970s. I think that a key 
issue that has come up at this hearing to some extent is the 
black box. It is a voluntary standard. Voluntary standards 
don't work as evidenced by the fact that Toyota, you know, its 
system is not even being made available and the deadline for 
compliance was supposed to be 2010. It was extended to 2012, so 
it is delayed. It is a 5-year lead-in for a voluntary standard, 
which is ridiculous. We think that the black box ought to be 
mandatory and that the data, have a standardized downloading 
for the data so that the police don't have to have seven 
different computers depending on if it is a General Motors car 
or Toyota or Nissan or Mercedes. They ought to have one 
standardized downloading system. And I think that a way that 
the agency could be drastically enhanced, it is very exciting, 
would be to have that black-box data when it is downloaded when 
a crash occurs, a serious crash, a tow-away crash or an airbag 
crash, to have that data go to NHTSA, have NHTSA set up a data 
system to receive it so that that can be the basis for their 
evaluation of defects and evaluation of safety standards, and 
the data would be voluminous and it would be fabulous and far 
more than what they have today, and it would be much less 
expensive. So I hope that the committee will consider that 
issue as well.
    The new safety standards should come out of some of the 
work that goes in the defects area. For example, for years 
NHTSA has tested cars and seat backs have failed when they hit 
them in the rear at 30 miles an hour and yet they have never 
issued a standard to upgrade that seat back. The very dangerous 
circumstance of seat back fails, you can't control the car, and 
also many people become quadriplegic and paraplegic as a 
result. But in the Toyota case, I think a brake override 
standard and a new accelerator standard which was issued in 
1973, it is not even electronic that is completely irrelevant 
to the current model should be done.
    And then finally, I believe that conflict-of-interest rules 
need to be strengthened as we have mentioned and I would 
mention that NHTSA has a test facility in Ohio but it is owned 
by Honda Motor Company. I created this back in the 1970s when 
it was owned by the State of Ohio. Now it is owned by Honda 
because they bought it. And I think that that should be 
changed. They should change their facility and there are some 
opportunities for doing that.
    Thank you very much, Mr. Chairman. I have several 
submissions for the record. I am sorry that I am slightly over 
on my time.
    [The prepared statement of Ms. Claybrook follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.011
    
    [GRAPHIC] [TIFF OMITTED] T6016A.012
    
    [GRAPHIC] [TIFF OMITTED] T6016A.013
    
    [GRAPHIC] [TIFF OMITTED] T6016A.014
    
    [GRAPHIC] [TIFF OMITTED] T6016A.015
    
    [GRAPHIC] [TIFF OMITTED] T6016A.016
    
    [GRAPHIC] [TIFF OMITTED] T6016A.017
    
    [GRAPHIC] [TIFF OMITTED] T6016A.018
    
    [GRAPHIC] [TIFF OMITTED] T6016A.019
    
    Mr. Rush. The Chair by unanimous consent will accept the 
extraneous material and your full statement into the record.
    Ms. Claybrook. Thank you, sir.
    Mr. Rush. Ms. Gadhia, you are recognized for 5 minutes.

                   STATEMENT OF AMI V. GADHIA

    Ms. Gadhia. Thank you. Chairman Rush, Ranking Member 
Whitfield and members of the subcommittee, thank you for the 
opportunity to testify on the road ahead for NHTSA. I am Ami 
Gadhia, policy counsel with Consumers Union, the nonprofit 
publisher of Consumer Reports.
    The recent Toyota recalls involving sudden, unintended 
acceleration have focused national attention on safety 
problems. Consumers Union believes that addressing this 
formidable challenge demands a coordinated effort by the 
government, automakers, the public and independent consumer 
groups such as our own. We recommend the following government 
actions to improve our auto safety net.
    Consumers Union believes government regulators could have 
moved more aggressively to pursue sudden, unintended 
acceleration and to protect consumer safety. Various news 
reports and our own analysis of documents from the investment 
point to a pattern of missed opportunities. NHTSA and Toyota 
were aware of unintended-acceleration complaints involving 
Toyota models as early as 2003 when the agency received a 
petition to investigate the problem. We are pleased that NHTSA 
is now looking into potential electronics issues behind the 
events involving Toyotas and we eagerly await the agency's 
findings. However, we believe that NHTSA can take actions now 
to improve safety.
    First, we would like to see improved public access to 
safety information. NHTSA's Office of Defects Investigations 
collects complaints and data about autos from the public and 
manufacturers in two separate databases: the consumer 
complaints database and the agency's early warning reporting 
system. They both have limitations, and the data they provide 
are not integrated, making it more difficult for investigators 
to spot issues and for consumers to find information. Consumers 
shouldn't have to visit different sites to see all of this 
information or be forced to search it using tools that are less 
than user-friendly. All complaint information should be visible 
by a single easy-to-use consumer-facing site. NHTSA should also 
initiate a program to raise public awareness and invite more 
drivers to participate in data gathering. The more public 
complaints there are to analyze, the greater the change that 
problems such as unintended acceleration will be identified at 
an early stage.
    Second, NHTSA should promulgate certain safety regulations 
to prevent unintended acceleration in all automobiles. They 
should require that cars be able to stop within a reasonable 
distance with a sustained press on the brake pedal even when 
the throttle is fully open. One method to reduce stopping 
distances is smart throttle technology that allows the brakes 
to override the throttle. Other methods may also become 
available. To us, the most important safety feature is to 
ensure that a vehicle can stop within a reasonable and safe 
distance. NHTSA should require simple standard controls that 
can easily turn off the engine in an emergency. In many current 
Toyota vehicles, when the car is moving, it requires a 
sustained 3-second push of the button to turn off the engine. 
Though that is a safety precaution to prevent accidental engine 
shutoff, it is an action many owners may not be able to do in a 
panic situation. Ignition controls should be easy to operate, 
especially in an emergency.
    NHTSA should require intuitive, clearly labeled 
transmission shifters in all cars. If your car is accelerating 
out of control, hitting the brakes and shifting into neutral is 
your best strategy but you want to know where neutral is when 
you are panicking. There should be consistency for shifters 
across all vehicles. NHTSA should also require a minimum 
distance between the gas pedal and the floorboard. Floor mats 
that entrap pedals have been a major focus in recent recalls 
but people frequently use thick mats or ill-fitting mats or 
stack the mats on top of each other. NHTSA should ensure that 
there is sufficient clearance between the pedal and the floor 
mat.
    We also think that NHTSA's cap on civil penalties should be 
lifted to act as a deterrent against future violations and that 
NHTSA could improve the recall compliance process. The average 
consumer response rate to vehicles is 74.1 percent. Currently, 
manufacturers notify dealers about recalls and the dealers in 
turn notify car manufacturers once the cars are repaired in 
response to a safety recall. Consumers Union suggests that 
going forward car manufacturers submit such data to NHTSA. This 
information, which manufacturers already have, should include 
individual vehicle identification numbers, or VINs, of cars 
that are subject to a particular recall as well as when the 
recall repairs were performed on the vehicles. NHTSA would then 
be able to match up safety recalls with the manufacturer-
provided VIN in a consumer-friend searchable database. We would 
further encourage States to consider linking safety recall 
compliance with the ability to obtain a vehicle registration 
similar to the way consumers must show proof of insurance to 
register their cars now. This would help people who purchase 
used cars to know whether recall repairs have been made.
    We also recommend that Congress take a look at the reports 
of a revolving door at NHTSA and whether this may have impacted 
safety decisions. We are pleased to hear today the 
administrator's comment that NHTSA will be looking into this 
particular issue.
    Finally, we urge Congress to adequately fund NHTSA. In 
2007, motor vehicle crashes accounted for 99 percent of all 
transportation-related injuries and fatalities yet NHTSA's 
budget currently amounts to just over 1 percent of the overall 
DOT budget. The agency's budgeting and staffing for auto safety 
and consumer protection functions should be commensurate with 
the realities of traffic safety.
    Consumers Union thanks the committee for the opportunity to 
present its recommendations as you move forward.
    [The prepared statement of Ms. Gadhia follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.020
    
    [GRAPHIC] [TIFF OMITTED] T6016A.021
    
    [GRAPHIC] [TIFF OMITTED] T6016A.022
    
    [GRAPHIC] [TIFF OMITTED] T6016A.023
    
    [GRAPHIC] [TIFF OMITTED] T6016A.024
    
    [GRAPHIC] [TIFF OMITTED] T6016A.025
    
    [GRAPHIC] [TIFF OMITTED] T6016A.026
    
    [GRAPHIC] [TIFF OMITTED] T6016A.027
    
    [GRAPHIC] [TIFF OMITTED] T6016A.028
    
    [GRAPHIC] [TIFF OMITTED] T6016A.029
    
    [GRAPHIC] [TIFF OMITTED] T6016A.030
    
    Mr. Rush. The Chair thanks the witness.
    The Chair now recognizes Mr. McCurdy for 5 minutes for the 
purposes of an opening statement.

                   STATEMENT OF DAVE McCURDY

    Mr. McCurdy. Thank you, Mr. Chairman and Ranking Member 
Whitfield for the opportunity to appear and speak on behalf of 
the industry as a whole. I must admit as you made your 
introduction, there was some chagrin on my personal part when I 
looked at the membership of this subcommittee in that I 
actually served with the fathers of three of the members, so it 
is a homecoming of sorts but I hadn't thought I had been gone 
that long. It is good to be back with you.
    As you and your colleagues consider the road ahead of 
National Highway Traffic Safety Administration, it is important 
to remember three key points. The administrator, who we are all 
delighted that David Strickland is now the administrator of 
NHTSA, as he pointed out in the Department of Transportation 
highlighted today and actually I have a chart that is displayed 
here that motor vehicle crash fatalities and injuries are at 
historic lows. It is a very, very important point because that 
is the mission of the organization. Secondly, autos have never 
been safer and they are still getting safer every day because 
of innovative safety technologies including advanced 
electronics. And third, we need to be careful not to inhibit 
the innovation or the speedy identification and remedy of 
defects.
    On the first point, as the chart indicates, sometimes when 
you see a chart like that it is confusing for folks but to put 
it in perspective, this figure reports fatality per 100 million 
vehicle miles traveled, so there are 1.16 fatalities per 100 
million miles traveled. That is down from in excess of two. Put 
that in terms of human lives, and again, we all know that this 
is far too many, that is a significant reduction from what Joan 
Claybrook would indicate back in the 1970s when it was at a 
high of 51,000. Now that is a decrease of 17,000. So I think 
that is a very important point that there is a significant and 
steady reduction despite increased ownership and increased 
vehicle miles traveled. So I think this is a goal that we share 
and we want to continue to work to support.
    As far as the safety of vehicles, by every single measure, 
these vehicles are dramatically safer than years ago, and in 
the last 15 years we have seen a revolutionary expansion of 
advanced vehicle safety technologies including increased number 
of electronic components and features. Mr. Braley mentioned 
being able to take apart a carburetor and engine in the 
basement. It is indeed impossible to do that today. But a lot 
of the technologies that we see to meet fuel economy 
requirements, to meet emission controls, to provide safety are 
because of these advanced electronics. Also, Ms. Claybrook said 
that voluntary standards don't work but in fact many of the 
incredible safety innovations were voluntary and were brought 
out before the agency ever considered regulating it. Electronic 
stability control--electronic stability control saves anywhere 
from 5,000 to 9,000 lives annually. Lane departure warning, 
over 2,700 lives. Safety belt reminders and safety belt 
interlock, again significant. Side airbags, forward collision 
warning, emergency brake assist, adaptive headlights, blind 
spot information systems, all of these are innovations that the 
industry introduced ahead of regulation.
    Secondly, it is really important to recognize that 
electronic systems are often far more reliable over time than 
mechanical systems. I used to represent the electronics 
industry and I will tell you that the advancements in solid-
state technology provide increased performance. It enables 
vehicles to not only sense, diagnose and also to have failsafe 
modes that are not possible with traditional historic 
mechanical systems. So this is a very significant technology 
which is helping us to meet our goals of sustainable mobility.
    And third, as I indicated, I think we are going to have to 
be careful not to inhibit this cycle of innovation because this 
industry innovates more rapidly and gets into the marketplace 
technologies for consumers and so we need to maintain a policy 
framework that embraces technology-based solutions ahead of 
regulation, and I don't think the public would be well served 
if automakers were forced to wait for the government to catch 
up with industry's innovation.
    And it also important, we have talked a lot about recalls, 
but the vast majority of recalls are voluntary, and I have a 
chart here talking about detecting and correcting the defects 
sooner. In fact, the number of recalls is up. Some may say 
well, isn't that a sign of problems. In fact, that is a good 
point because the number of vehicles affecting is coming down 
so automakers are using the recall system based on data it 
receives not only from the consumer directly but also from the 
agencies to initiate these actions, to identify the defects and 
get them remedied and get the vehicles back into the 
marketplace.
    And then just in closing, I want to make a couple points 
about some suggestions for this committee, and I appreciate--I 
know how this chairman works and I know how this committee 
works, and you want to build a consensus on a bipartisan basis 
to address significant concerns. We would respectfully submit 
that Congress really does need to ensure that NHTSA has the 
resources to do its job and we would support this committee in 
its efforts. We have long advocated additional resources to 
fund the National Automobile Sampling System, the NASS system, 
which we believe is underfunded. We also support a number of 
other legislative elements that we hope would be included in 
this reauthorization such as State inducements, in other words, 
working to encourage States to adopt primary enforcement safety 
belt laws. I know that Chairman Oberstar is looking at this in 
his reauthorization. Our industry spent hundreds of millions of 
dollars in campaigns to try to pass primary seat belt 
enforcement laws across the country, and we have made real 
progress. We had three States this year alone.
    We also believe there should be a first offense with an 
ignition interlock requirement for impaired driving, drunk 
driving. The statistic that is not reported up there, the 
33,000 deaths, unfortunately, 30 percent of those or more are 
the result of less than 1 percent, one-half of 1 percent of the 
drivers and those that are impaired drunk driving. We have to 
get those people off the road.
    And then lastly, the graduated license laws for teens based 
on best practices, the STANDUP Act, we support that, and then 
there are other things that can really work to fund support 
high-visibility enforcement efforts such as Click It or Ticket 
and other limit under arrest or over the limit under arrest 
provisions. And again, there is an opportunity to support a 
driver alcohol interlock device research program called the 
ROADS SAFE Act, which puts money to try to develop research to 
prevent drunk drivers getting access to vehicles or starting 
vehicles.
    We appreciate very much your work. I understand how 
challenging it is. And we look forward to working with you to 
help develop commonsense solutions to some of these challenges.
    [The prepared statement of Mr. McCurdy follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.031
    
    [GRAPHIC] [TIFF OMITTED] T6016A.032
    
    [GRAPHIC] [TIFF OMITTED] T6016A.033
    
    [GRAPHIC] [TIFF OMITTED] T6016A.034
    
    [GRAPHIC] [TIFF OMITTED] T6016A.035
    
    [GRAPHIC] [TIFF OMITTED] T6016A.036
    
    [GRAPHIC] [TIFF OMITTED] T6016A.037
    
    [GRAPHIC] [TIFF OMITTED] T6016A.038
    
    Mr. Rush. The Chair thanks all the witnesses and the Chair 
thanks Mr. McCurdy for your statement. The Chair recognizes 
himself for 5 minutes for questioning.
    Mr. McCurdy, there has been a lot of testimony at this 
hearing and in past hearings, and some of it has centered on 
the black box as a technological solution or a recording device 
that would help in gathering data and also determining the 
causes for accidents. What is the industry's response to this 
phenomenon of the black box?
    Mr. McCurdy. We believe the information from event data 
recorders is important for NHTSA to do its job. They do have a 
rule that has standardized or recommended standards for the 
type of data that would be acquired. I think the industry is 
moving rapidly towards deployment of that system. Over 60 
percent of all vehicles today, modern vehicles, have that 
capability. The only caution I would give, and again, having 
come from the intelligence and defense world, when we talk 
about black boxes or we come from the world of aerospace where 
some people think that in an aircraft there is this black box 
that they recover after an accident. Actually these data 
systems are embedded throughout vehicles and so it is not just 
one solitary device. But is important that there are 
commercially available tools to access that. So I think the 
agency is going to be addressing this and we look forward to 
working with them. I think this is something that can be 
addressed.
    Mr. Rush. Ms. Claybrook, you indicated that you think that 
NHTSA's current budget is inadequate and that the President's 
budget for this year, or next year, rather, is inadequate. What 
do you think as a former administrator in today's dollars, how 
much do you think NHTSA's budget should be and what do you 
think should be the categories that we should look at 
increasing personnel and other resources for NHTSA?
    Ms. Claybrook. Thank you, Mr. Chairman. I think that the 
budget should be doubled. It is $132 million, which is a 
pittance by any measure in the federal government, and it 
should probably double the year after that. This agency is 
starving to death. It can't do the research it should. It can't 
collect the data that it should. It doesn't have the expertise 
that it should. It doesn't have the enforcement personnel that 
it should. And all of us suffer from that because of deaths in 
the highway, and I think that Mr. Strickland is going to be a 
good leader for this agency. I am looking forward to see his 
work, I think he needs the resources to do it, and I have 
already been talking to him and the Secretary a little bit 
about this, and I think his answer was very appropriate that 
they would use very wisely the resources that the Congress 
decided that they would give the agency. He didn't say we 
didn't want them or that they couldn't use them. He said that 
they would use them wisely, and I think that is as far as he is 
allowed to go under the President's rules and I am very pleased 
to see that he said that.
    Mr. Rush. You have given us seven----
    Ms. Claybrook. I would add one other thing, Mr. Chairman, 
which is that issues have been raised today about the reduction 
in death and injury on the highway, which is magnificent, but I 
would also point out that after the oil crisis of 1973, there 
was a reduction of 9,000 deaths a year because the economy was 
in the sink, and I think that if you look at the documents that 
were prepared by the agency itself, for example, here is there 
list that they put out today of their crash stats, you will see 
that every time there is a downturn in the economy, there is 
less discretionary driving and there is a downturn in death and 
injury, but it comes right back up again, and so should anyone 
suggest that this is a permanent fix for the agency, it is not. 
I think that you are still going to need those resources, new 
safety standards, and there are many others that I didn't 
mention today which I will submit a list of for the record of 
other safety standards that the agency is woefully behind in 
issuing.
    Mr. McCurdy. Mr. Chairman, may I inject one point on that, 
just clarification? I think the administrator said that it 
actually had decreased and decline for 15 and a half straight 
quarters. That is more than the current recession, so I think 
this is a long-term trend. It is because of the regulatory 
efforts and it is because of the work of the industry 
cooperatively with that agency and also the work of Congress.
    Ms. Claybrook. Well, I wouldn't say that. The acting 
administrator, the one who went to Japan, Mr. Medford, he gave 
a presentation which I will also submit for the record in which 
he said that safety technologies had between 1960 and 2000 
saved 328,551 lives, and so I do agree, I agree with Mr. 
McCurdy that cars are safer today. I am disappointed that the 
industry often opposes some of those improvements but they also 
do take initiatives on their own, which he has mentioned, and 
these safety features can make a huge difference. They have 
made a difference in the number of lives saved and the number 
of deaths on the highway today would be far, far greater were 
not this agency doing its work, but there is much more that can 
be done and we will see more deaths and injuries when the 
economy improves.
    Mr. Rush. My time is expired. The Chair recognizes Mr. 
Whitfield for 5 minutes.
    Mr. Whitfield. Thank you. This has been quite an 
interesting hearing, and of course, any time we talk about 
death on the highway, and all of us have known people who have 
been killed in car accidents or have had loved ones that have 
been disfigured, and there is no way not to be emotional about 
individual deaths on the highway. But I am walking away from 
this hearing feeling a little bit better really about things, 
understanding that the Toyota issue is out there but when you 
have this kind of a reduction in the deaths per 100 million 
miles from in the middle 1970s 3.34 fatalities per 100 million 
vehicle miles down to last year 1.16 per 100 million miles, and 
it doesn't really make any difference what the economy is or is 
not, we are talking about 100 million vehicle miles. So I think 
that is something we really should celebrate to see that the 
fact that this fatality rate is coming down.
    Now, when we talk about the budget of NHTSA, I think the 
total budget is somewhere in the neighborhood of $900 million 
but a lot of that goes to State grants, and you all may be more 
familiar with those State grants than I am and I know that Ms. 
Claybrook is right as far as vehicle safety. There is about 
$132 million a year for vehicle safety. But I referred earlier, 
for example, to this Congressionally mandated study in 2005 
about the causes of vehicle accidents, and it said that 95 
percent were due to the driver, primarily driver mistakes, and 
2 percent, by the way, were related to vehicle or equipment 
defect but about 40 percent or 50 percent of that related to 
tires. So I am just wondering if maybe we should look at this 
in a different way and try to start focusing more money on 
educating drivers, better educational programs for drivers. And 
every State sets their own laws for how old you have to be and 
what kind of program you have to go through to drive. Because 
of the fact that 95 percent of all accidents are caused 
primarily because of driver neglect or whatever, should we be 
focusing on more programs to provide better educational 
opportunities for drivers to make them better prepared? And I 
would just ask each one of you that question and see how you 
would respond to that.
    Ms. Claybrook. Well, first of all, Mr. Whitfield, thank you 
so much for putting this out, and I appreciate your question. 
First of all, I would like to submit for the record the 
problems that we see with this causation study. It is quite 
complicated and I don't want to take the time today, but there 
are a lot of deficiencies in it. But even assuming, which I 
don't, that 95 percent of the crashes occur because of driver 
error, what you have to look at is what causes the death and 
injury, and Dr. William Haddon, who was the first NHTSA 
administrator, put together what he called the Haddon Matrix 
and it had pre crash, crash and post crash, and what you are 
talking about is the pre-crash issue, which is drunk driving, 
falling asleep, brakes don't work, whatever it may be in the 
pre-crash field.
    Mr. Whitfield. Ms. Claybrook, there is only about a minute 
left, so I am just going to say that you disagree with what I 
was saying, I am assuming, that----
    Ms. Claybrook. Well, no, not necessarily. I will submit for 
the record the information on that. But what you want to do is 
to protect the driver and the occupants, and the way you do 
that is making sure the car is safe regardless of what causes 
the crash, and on driver education, NHTSA itself has done lots 
of work on this and shown that driver education really doesn't 
do much in terms of the long-term driving capability of most 
people.
    Mr. Whitfield. What about you, Miss Gadhia?
    Ms. Claybrook. I like driver education. I mean, it----
    Mr. Whitfield. What about you, Ms. Gadhia? Do you have any 
comments on that?
    Ms. Gadhia. In our testimony that we submitted for the 
record, we took a look at the question that the committee is 
asking in light of all the recalls that we have seen in recent 
weeks, are there areas that we see for improvement, and so we 
have made our recommendations accordingly. We are pleased, 
though, that the agency and Secretary LaHood have put a great 
focus on distracted driving. That is something that has been 
obviously a big problem. So we do see a value in that 
particular kind of focus.
    Mr. Whitfield. Mr. McCurdy?
    Mr. McCurdy. Thank you, Mr. Whitfield. In fact, in addition 
to driver behavior and performance, there is the driving 
environment, so the condition of roads, the lack of safety 
features there, weather, et cetera is a fact in 2 percent and 
then in the other instances, about 2 percent can be attributed 
to the vehicle. But I will tell you, since we had a reference 
to older vehicles, I will provide for the record a copy of our 
playbook. It has an interesting photograph of a 50th 
anniversary event at the National Institute of Highway Safety, 
the Insurance Institute, and they did a 40-mile-an-hour head-on 
crash of two vehicles. One was a 1959 Chevrolet Belair. We are 
not picking on Chevy. It is actually a good story here. As you 
know, in 1959--well, some of you probably weren't around then 
but most of us who were know there is a lot of metal there--a 
40-mile-an-hour head-on crash with a 2009 Chevy Malibu, which 
is a smaller car, and the results are dramatic. The cage, the 
front seat, the passenger area of the 1959, those passenger 
would have been killed. There is no doubt. I mean, severely 
injured, tremendous impact, crushing that compartment. In the 
new model, the cage is intact. It also has front airbags, side 
airbags, side curtains and also has other features that improve 
the likelihood of survival in a head-in crash regardless of the 
cause, whether it is someone swerving.
    The last point I would make in this, a comment made about 
the 3-second stop. I drive a vehicle that has push-button on 
stop. That is one of the features that many, many consumers are 
moving towards. Are we saying that consumers today, it is in 
the manual, it is in the instructions and all the rest, can't 
take 3 seconds to push a button? I know that we panic, I know 
there are instances, but there is a need for education. There 
is a need. And maybe one of the positive aspects of all this 
investigation, all the reporting is maybe consumers are having 
to pay attention to actually the vehicles that they are 
driving, what are those shifters, where is neutral. My son-in-
law drives a Camry. When this came up, the ones in the recall, 
he asked what do you do. I said you put it in neutral, OK. You 
don't want to turn it off at first, and those buttons are there 
and that 3-second delay is there for a reason because you don't 
want inadvertent shutting off the engine because then you could 
lose power. That affects steering and other conditions.
    So I think there is a commonsense approach we need to take. 
Let us find out what it is. Let us work together. And I think 
that is what NHTSA and the industry should be discussing. So 
there is not one solution, but I think there is a genuine 
concern about it to try to develop some solutions.
    Ms. Gadhia. Mr. Chairman, may I briefly respond to the 
comment about the push button?
    Mr. Rush. Certainly.
    Ms. Gadhia. I would like to note that our recommendations 
have to do with when the consumer is in an emergency situation 
since we have been talking about sudden unintended 
acceleration, and I will note also that given what has 
happened, it is my understanding that Toyota is working on 
reconfiguring their push-button ignition so it can be turned 
off in an emergency situation with multiple quick presses in a 
short period of time. So that is what we are talking about.
    Mr. Rush. The Chair recognizes the gentlelady from Illinois 
for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to 
apologize to the witnesses for not being here for your 
testimony, though I have looked at it. I want to also just take 
this moment to say what a tremendous resource we have in Joan 
Claybrook, who did serve as head of NHTSA, and I hope that not 
only our subcommittee but that NHTSA right now will take 
advantage of all of the years of experience she has had not 
only as an administrator but as an advocate. I thank Ms. Gadhia 
and also Mr. McCurdy for the work that you are doing, but I 
wanted to particularly just thank Joan for decades, I won't say 
how many, of being an advocate for consumers.
    In looking at the priorities that you laid out for 
legislative and administrative--I mean, there are a couple 
things that are clearly legislative. If you think that 
penalties need to be enhanced, I think that is legislative on 
our part. But what are those things that you think the 
committee in particular has to deal with that really can't be 
done administratively to meet the goals that you have set out 
or the problems that you have identified?
    Ms. Claybrook. Well, I would say certainly in the penalty 
area that that is a legislative issue, and in the funding, that 
is a legislative issue. The President's budget is what it is 
and it is totally insufficient, and so it is not this 
committee's responsibility, although you do authorize, of 
course. I think that in the area of transparency, there have 
been some decisions made by the agency that this committee 
could change. In the early warning act, while there was a lot 
of discussion about the information being open, in fact, the 
way that it was written was interpreted as not being open. So I 
think that it would helpful clarification on transparency with 
the early warning system because right now it is not available 
to any of us.
    Ms. Schakowsky. And that would require a change or a 
clarification or----
    Ms. Claybrook. I think it would be--yes, I think it would 
be very helpful to have a clarification of that.
    In terms of consumers being able to bring a lawsuit when a 
case is closed in the enforcement area, we definitely need to 
have legislation there because of the court of appeals 
decision, and then I think it would be very helpful to have 
some legislative support for improving the black block. This is 
something that could be done administratively by the agency. I 
think it would be really helpful because if the black box is 
mandatory, if it gathers a lot of really good data, if it can 
be downloaded easily, all of that data can come into NHTSA's 
data system and it would vastly enhance, excitingly enhance the 
capacity of the agency to analyze problems, to find out what is 
going on in the highway because this would be rich information 
from our crashes that occur right then on the highway, and this 
information is totally lacking in the agency now, and gathering 
it through the NASS system, which is this National Accident 
Sampling System, which is after the fact investigations, there 
was intended to be 20,000 of them a year, it is now 4,000 
because of the cost, and this I think will never get to the 
20,000. So why not take advantage of this data that is going to 
be collected anyway in black boxes under what I think has to be 
a mandate for the black box itself and use that data for the 
operation for the agency as well as particular crashes.
    Ms. Schakowsky. Mr. McCurdy, you seem to be nodding at 
that. Did you want to comment on this?
    Mr. McCurdy. Thank you, ma'am. Actually I did want to 
comment. We asked for additional resources for NASS. We think 
that data needs to be collected, and this committee has 
oversight of NHTSA and the data is there but we need to make 
sure that the agency has the tools and resources to gather it. 
My only caveat on that, and I think this is something that we 
need to work on, is I don't believe that the wholesale release 
of raw and unverified data would further objective of quickly 
identifying and correcting defects. If anything, it may lead to 
more litigation, and I don't believe that is the answer.
    Ms. Claybrook. Well, I should say, Mr. McCurdy----
    Mr. McCurdy. I actually have the mic, Mr. Chairman. You 
know, I don't believe it would in fact do that. I would hope 
before the gentlelady leaves or we at least have another round 
actually talk about one of the principle issues that you are 
the key sponsor of which we supported, the Cameron Gulbransen 
Act, and the role that we actually played because this is one 
of our priorities and it shows where we can actually work 
together to address significant problems, and those are some of 
the most tragic instances that we know.
    Ms. Schakowsky. They are.
    Mr. McCurdy. I worked with Senator Sununu and Senator 
Clinton at the time as well as your staff and the staff of the 
committee to make that happen, and the industry fully supported 
that. So I want to make sure that is on the record.
    Ms. Schakowsky. And I appreciate that.
    Ms. Claybrook. Could I----
    Ms. Schakowsky. Is there any way, Mr. Chairman, that Ms. 
Claybrook can respond back to that, or do you want----
    Ms. Claybrook. It is privacy information. I just want to 
make clear that I don't think that this data should be public 
as to individual crashes. It would be for statistical purposes. 
That is all I wanted to say.
    Ms. Schakowsky. Thank you.
    Mr. Rush. The gentlelady's time has expired. The Chair 
recognizes the gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Ms. Claybrook, let me just follow up what Ms. Schakowsky 
talked about. In these boxes, isn't the box on a person's car, 
that box would belong to that person, wouldn't it?
    Ms. Claybrook. Yes.
    Mr. Stearns. So wouldn't they have the right to opt out if 
they wanted to? Could they flick a switch so that if they 
didn't want this to occur, they could do it, or do you think 
that should not be----
    Ms. Claybrook. I don't think there ought to be an on/off 
switch.
    Mr. Stearns. So you think there should be no opt-out?
    Ms. Claybrook. I do not think there should be an opt-out.
    Mr. Stearns. OK. Secondly, the information they collect is 
obviously speed, perhaps location. Is it going to go beyond 
that in terms of weight in the car or driving habits? What, in 
your opinion----
    Ms. Claybrook. On the black box?
    Mr. Stearns. In the black box. It sounds like you want to 
expand it, and I think many people are concerned about how the 
federal government will handle this data. Say I can't opt out 
of the box under your persuasion, then if it goes to the 
federal government, is this going to be public on the Internet? 
Should private citizens be able to go and see that about their 
neighbors who are driving? I mean, there are some privacy 
implications I think that I am concerned about.
    Ms. Claybrook. I really appreciate you asking the question 
because I certainly didn't mean to suggest that every crash 
that occurs should be publicly exposed on the Internet with the 
name of the person and their car and all the rest of it. The 
black box generally collects data 20 to 5 seconds before a 
crash and 5 to 10 seconds----
    Mr. Stearns. So it doesn't come on all during the whole 
time?
    Ms. Claybrook. No.
    Mr. Stearns. And so it is very, very limited time frame, 
and what it records is whether your foot was on the 
accelerator, whether it was on the brake, a lot of aspects of 
the engine itself, the speed of the vehicle and so on, and that 
data, what I am talking about having to go to the federal 
government, it would be only statistical data. All privacy 
information would be erased, so the federal government wouldn't 
even have it. It would just be statistical data. It would just 
be that a crash occurred and what the circumstances were so 
that you can then accumulate that data and say these are the 
kind of crashes that are occurring and these are the kind of 
remedies that we need to think about applying because of that. 
I do think it needs to be mandatory. I think it should be on 
every vehicle. Actually, General Motors, Ford and Chrysler 
readily reveal the contents of their black boxes in litigation 
because they think it is advantageous for them.
    Mr. Stearns. Well, I guess this committee would be 
concerned about the privacy. Let me move on. I have another 
question.
    Mr. McCurdy, welcome to the committee. It is nice to see 
you. Eddie Towns and I dropped a bill on January 28, 2009, 
which would direct the Department of Transportation to issue 
regulations which would mitigate the safety hazard caused by 
near-silent hybrid and electric cars. I was in a parking lot 
going into the grocery store and I was just walking along with 
my BlackBerry and this car came up that was a hybrid and I 
didn't hear it, and it practically hit me, and so my question 
is, I think both General Motors and NHTSA have come up and 
proposed methods to address this, and I guess the concern of 
the ever-increasing desire now to have these cars that are 
hybrid and silent and you can't hear them. Winston Churchill 
almost got killed when he came to the United States and got off 
the wrong side of the road, and certainly if these cars are 
silent, he might not have been alive and so concerned with 
ever-increasing danger and sort of the inconsistency of the 
industry response so far. Do you think NHTSA needs to take 
further action to ensure an industry-wide solution, perhaps 
something like Congressman Towns and I, the bill we introduced 
which is called the Pedestrian Safety Enhancement Act of 2009. 
It has 210 cosponsors. It is H.R. 734.
    Mr. McCurdy. I know the bill well, and it is good to see 
you, Mr. Stearns. Actually we refer to this as the quiet car 
legislation, and concern. Actually I think we ought to 
recognize--I don't know if John is still here--John Pare from 
the National Federation of the Blind. We at the Alliance have 
been working closely with NFB. Our member companies have been 
conducting acoustic testing. There are some challenges. You 
know, it is ironic, unintended consequences, but we have been 
pushed for years by some that say we have to reduce noise. We 
have been pushed by others to say we have to eliminate the 
internal combustion----
    Mr. Stearns. No one is ever happy.
    Mr. McCurdy. So we are moving, you know, rapidly to hybrid 
and electric technology and they are quiet, if not silent. I 
can't resist the point, though, when you say that you are 
walking along with your BlackBerry and don't hear it. It is a 
little bit of distracted walking, and we are mixing issues 
here, but we talk about distracted driving too. The point 
that----
    Mr. Stearns. But I am a pedestrian and I had the right-of-
way with the hybrid.
    Mr. McCurdy. Actually I spoke to the NFB convention earlier 
in the year when they were in Detroit. I think they will tell 
you that we have reached out to them. We have worked closely 
with them. What we are trying to do is understand the 
challenges here, to really understand what the acoustic----
    Mr. Stearns. Is there a timeline? Can you give me a 
timeline?
    Mr. McCurdy. Well, we have been doing the research now. I 
think there are questions of length of implementation but I 
think we are not far from finding a solution.
    Mr. Stearns. A year, 2 years?
    Mr. McCurdy. It depends on front end and back. I think we 
are actually making real progress, and again, we want NHTSA to 
engage with us as well. So I think there is an opportunity for 
real stakeholder conversation here, and it is not 
confrontational at all. I think this is a question of really 
understanding the problem and bringing to bear the right 
science and engineering. But I think there will be a solution 
and I think it can be----
    Mr. Stearns. And you think NHTSA should have an industry-
wide solution?
    Mr. McCurdy. It should be industry-wide. I think it is 
actually going to be global. I am involved internationally and 
I think Japan is----
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. McCurdy [continuing]. Actively engaged and others will 
as well.
    Mr. Rush. I recognize Mr. Braley for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    Mr. Stearns, there is a great episode on the TV show The 
Office where one of the characters engages in a low-speed chase 
with a Prius and sneaks up on one of the other characters, 
which demonstrates the importance of this legislation.
    Mr. McCurdy, voluntary can be a relative thing, and you 
talked earlier about some of the voluntary changes the industry 
has made to respond to safety concerns but a lot of those 
changes that were made were also things that the industry 
initially resisted, and one of the great things about the 
country we live in, we have a system that allows people from 
all different walks of life to work together both in a public 
setting like through NHTSA and through our private enforcement 
methods to try to hold people accountable and work together to 
improve the technology in automobiles. You mentioned that you 
had concerns about the use of electronic data recorder 
information and suggested it could lead to more litigation. I 
would challenge that statement because I believe if you had a 
system with standards for accessing and downloading that 
information and a clear understanding of what it represented, 
you could actually reduce litigation because right now much of 
the expense in a lot of these crash cases is people trying to 
understand how an accident occurred, how the occupant 
compartment was compromised and potentially contributed to the 
fatality or the severity of the crash. So one of the things 
that I am interested in hearing from you is, we have been 
talking about the standards for electronic data recorders and 
there has already been some proposals both by the Institute for 
Electric Engineers and also proposed regulations that NHTSA is 
considering, and it has been my impression that some members of 
your alliance have been objecting to the enactment of those 
regulations. Are you able to make a statement here at the 
hearing today on behalf of the Alliance that it supports the 
enactment of standardized regulations by NHTSA that govern the 
use of electronic data recorder information?
    Mr. McCurdy. I believe we are moving in that direction. I 
will put it that way. I think the industry, there is well over 
64 percent I think is the most recent number of 2005 models 
that have EDRs. I may have been confused on all the 
information. I think some of the early warning information is 
where we have some concerns. The type of information in the EDR 
is probably less of concern. But again, I think there can be 
movement on this, and again, I think the stakeholders and 
working with NHTSA have an opportunity. My hesitation was 
because of my experience in the electronic field is that again 
some people have a very simplistic idea of what that is. It is 
not quite as simple as just saying everyone is going to have a 
black box, but I think we are moving in that direction.
    Mr. Braley. And Ms. Gadhia, I want to talk to you about 
that because in your written statement you said the EDR 
information must also be standardized and expanded, and Mr. 
Stearns began his question by asking Ms. Claybrook about the 
ownership of that data and assumed that it belonged to the 
owner of the vehicle, and yet during the early years of EDR 
data availability, the manufacturers frequently took the 
position that was proprietary information that belonged to 
them, not the person who paid for the automobile. So how do we 
move forward from this point to try to come up with a system 
that makes easily available and downloadable information that 
achieves the privacy concerns we are worried about but provides 
us with better data that helps us solve the underlying problems 
that lead to occupant injury?
    Ms. Gadhia. As we noted in our written testimony that the 
NHTSA regulation is going to require EDRs to collect--the cars 
that do have EDRs to collect certain standardized amounts of 
data from 2013 model year cars. We would like to see that 
happen sooner. We think there is a utility to the information 
that they collect. But there are some privacy concerns about 
ownership of the data, as you mentioned, Representative Braley, 
and in the past Consumers Union has submitted comments to NHTSA 
as they were considering the regulation that the final rule 
that they put forward in 2006 and I would be happy to share 
that with your office.
    Mr. Braley. Please do. That would be much appreciated.
    Ms. Claybrook, I want to finish with you. One of the things 
that we know from the medical field, there is a process called 
differential diagnosis, and that is when a physician is 
presented with a sick patient, they come with the hierarchy of 
the possible causes of their illness beginning with the most 
likely and descending to the least likely, and then the 
physician goes through a process of testing and evaluation to 
try to rule out what could be causing the illness to be able to 
reach a final diagnosis and a plan of treatment. And one of the 
concerns I have with the response we have seen to some of the 
problems with the Toyota recall is that the differential 
diagnosis that Toyota engaged in was limited, it appeared to 
many of us, to a mechanical failure, and they have now 
participated in massive recalls to address sticky accelerator 
pedals and problems with floor mats. And yet we still see 
reports of sudden unintended acceleration in vehicles where 
those retrofits have been made. So can you comment based on 
your experience as a former NHTSA administrator and as somebody 
involved in a long period of public safety advocacy on what you 
think needs to be done to get to the underlying cause?
    Ms. Claybrook. Well, Toyota is the only company, the only 
entity that can do that. They designed the vehicle, they 
created the software, they have software engineers who did it. 
The National Highway Traffic Safety Administration should not 
design the remedy. It never has in any case ever. And it 
doesn't have the capacity to do the kind of evaluation that is 
necessary to figure out what the underlying cause is. A lot of 
people have said that figuring out a software glitch is almost 
impossible in some cases, particularly if no marker is left 
that this glitch even occurred, a marker left in the computer. 
And so that is why a lot of people have talked about the brake 
override as the only possible solution because we just don't--
at least we don't know, maybe Toyota does but we don't know 
what the problem is. I think it is very interesting that Toyota 
has said it is a floor mat recall of 5 million cars and yet the 
remedy that they are putting in most of those cars is not only 
to remove or fix the pedal and the floor mat but to put in a 
brake override system, which is an electronic fix. Why did they 
put an electronic fix in if it is the floor mat or the pedal? 
They say it is for customer, you know, so they will feel safe. 
I think it is because it is a software problem, and if the 
vehicles have been fixed with the floor mat and the pedal and 
the pedal and they still run away, then there is obviously 
another problem, and I think there are also vehicles that are 
not covered by the recall that may have these problems. They 
may not be identical. They may use different software so they 
are not identical problems. But there is no question in my mind 
that this is an electronic issue, and I think the company took 
the position early on that it wasn't because that hurts their 
sales with consumers. Consumers don't like software glitches 
they can't understand, and they couldn't change. Now if they 
change their mind, they are going to be subject to 18 U.S.C. 
1001 lying to the government and going to jail. So they are in 
a very difficult position. Why would they do that now that they 
have taken this position in the hardcore way that they have.
    I was at a Senate hearing the other day and there were 21 
people representing Toyota sitting in front of me, and I said 
to them, gee, you have a lot of lobbyists, and they said oh, 
no, no, these are all communications people. I think that they 
are looking at this as a communications fix as opposed to a 
real fix.
    Mr. Braley. I want to thank all the witnesses for your 
impressive testimony and look forward to working with all of 
you as we move forward on these important issues, and I yield 
back, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman, and the Chair 
himself also thanks all the witnesses again for your patience 
and for your time that you have contributed to us. Your 
testimony has been invaluable as we proceed down this path for 
reauthorizing NHTSA, and the Chair thanks you and wants you to 
know that you have done a great service to the American people, 
the driving public, today.
    Thank you very much. The subcommittee stands adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6016A.039
    
    [GRAPHIC] [TIFF OMITTED] T6016A.040
    
    [GRAPHIC] [TIFF OMITTED] T6016A.041
    
    [GRAPHIC] [TIFF OMITTED] T6016A.042
    
    [GRAPHIC] [TIFF OMITTED] T6016A.043
    
    [GRAPHIC] [TIFF OMITTED] T6016A.044
    
    [GRAPHIC] [TIFF OMITTED] T6016A.045
    
    [GRAPHIC] [TIFF OMITTED] T6016A.046
    
    [GRAPHIC] [TIFF OMITTED] T6016A.047
    
    [GRAPHIC] [TIFF OMITTED] T6016A.048
    
    [GRAPHIC] [TIFF OMITTED] T6016A.049
    
    [GRAPHIC] [TIFF OMITTED] T6016A.050
    
    [GRAPHIC] [TIFF OMITTED] T6016A.051
    
    [GRAPHIC] [TIFF OMITTED] T6016A.052
    
    [GRAPHIC] [TIFF OMITTED] T6016A.053
    
    [GRAPHIC] [TIFF OMITTED] T6016A.054
    
    [GRAPHIC] [TIFF OMITTED] T6016A.055
    
    [GRAPHIC] [TIFF OMITTED] T6016A.056
    
    [GRAPHIC] [TIFF OMITTED] T6016A.057
    
    [GRAPHIC] [TIFF OMITTED] T6016A.058
    
    [GRAPHIC] [TIFF OMITTED] T6016A.059
    
    [GRAPHIC] [TIFF OMITTED] T6016A.060
    
    [GRAPHIC] [TIFF OMITTED] T6016A.061
    
    [GRAPHIC] [TIFF OMITTED] T6016A.062
    
    [GRAPHIC] [TIFF OMITTED] T6016A.063
    
    [GRAPHIC] [TIFF OMITTED] T6016A.064
    
    [GRAPHIC] [TIFF OMITTED] T6016A.065
    
    [GRAPHIC] [TIFF OMITTED] T6016A.066
    
    [GRAPHIC] [TIFF OMITTED] T6016A.067
    
    [GRAPHIC] [TIFF OMITTED] T6016A.068
    
    [GRAPHIC] [TIFF OMITTED] T6016A.069
    
    [GRAPHIC] [TIFF OMITTED] T6016A.070
    
    [GRAPHIC] [TIFF OMITTED] T6016A.071
    
    [GRAPHIC] [TIFF OMITTED] T6016A.072
    
    [GRAPHIC] [TIFF OMITTED] T6016A.073
    
    [GRAPHIC] [TIFF OMITTED] T6016A.074
    
    [GRAPHIC] [TIFF OMITTED] T6016A.075
    
    [GRAPHIC] [TIFF OMITTED] T6016A.076
    
    [GRAPHIC] [TIFF OMITTED] T6016A.077
    
    [GRAPHIC] [TIFF OMITTED] T6016A.078
    
    [GRAPHIC] [TIFF OMITTED] T6016A.079
    
    [GRAPHIC] [TIFF OMITTED] T6016A.080
    
    [GRAPHIC] [TIFF OMITTED] T6016A.081
    
    [GRAPHIC] [TIFF OMITTED] T6016A.082
    
    [GRAPHIC] [TIFF OMITTED] T6016A.083
    
    [GRAPHIC] [TIFF OMITTED] T6016A.084
    
    [GRAPHIC] [TIFF OMITTED] T6016A.085
    
    [GRAPHIC] [TIFF OMITTED] T6016A.086
    
    [GRAPHIC] [TIFF OMITTED] T6016A.087
    
    [GRAPHIC] [TIFF OMITTED] T6016A.088
    
    [GRAPHIC] [TIFF OMITTED] T6016A.089
    
    [GRAPHIC] [TIFF OMITTED] T6016A.090
    
    [GRAPHIC] [TIFF OMITTED] T6016A.091
    
    [GRAPHIC] [TIFF OMITTED] T6016A.092
    
    [GRAPHIC] [TIFF OMITTED] T6016A.093
    
    [GRAPHIC] [TIFF OMITTED] T6016A.094
    
    [GRAPHIC] [TIFF OMITTED] T6016A.095
    
    [GRAPHIC] [TIFF OMITTED] T6016A.096
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
